<html>
<title> - ENSURING WE HAVE WELL-TRAINED BOOTS ON THE GROUND AT THE BORDER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    ENSURING WE HAVE WELL-TRAINED BOOTS ON THE GROUND AT THE BORDER 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-49

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-923 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State Colorado.............................................    29

                               Witnesses
                                Panel I

Mr. T.J. Bonner, President, National Border Patrol Council, 
  American Federation of Government Employees:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Ms. Colleen M. Kelley, National President, The National Treasury 
  Employees Union:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Mr. Robert B. Rosenkranz, Senior Vice-President, Government 
  Services Division, DynCorp International:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Panel II

Ms. Cynthia Atwood, Assistant Director, Filed Training 
  Directorate, Federal Law Enforcement Training Center, 
  Department of Homeland Security:
  Oral Statement.................................................    58
  Prepared Statement.............................................    59
Mr. Art Morgan, Director, Field Operations Academy, Customs and 
  Border protection:
  Oral Statement.................................................    52
  Prepared Statement.............................................    55
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39
Chief Charlie Whitmire, Director, Border Patrol Training Academy, 
  Customs and Border Protection, Department of Homeland Security:
  Oral Statement.................................................    53
  Prepared Statement.............................................    55

                                Appendix

Additional Questions and Responses:
Responses from Ms. Colleen M. Kelley.............................    73
Responses from Mr. Robert B. Rosenkranz..........................    74
Responses from Chief Charlie Whitmire............................    75


    ENSURING WE HAVE WELL-TRAINED BOOTS ON THE GROUND AT THE BORDER

                              ----------                              


                         Tuesday, June 19, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Management, Investigations
                                             and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:04 a.m., in 
room 311, Cannon House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Perlmutter, and Rogers.
    Mr. Carney. [Presiding.] The Subcommittee on Management, 
Investigations and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
``Ensuring We Have Well-Trained Boots on the Ground at the 
Border.''
    For some time now, I have been listening to my 
constituents' concerns about immigration and potential reforms 
to the system. Not surprisingly, border security is one of 
their prime concerns. This conversation has gone national, and 
that is a good thing. All Americans should be worried about our 
porous borders.
    But these discussions mean nothing if we can't hire and 
retain the personnel we need to keep our borders secure, and 
personnel are only as good as their training. That is why we 
are holding this hearing today.
    The Customs and Border Patrol force is one of the best 
agencies in DHS and the Federal Government. Border Patrol 
agents train at the elite Border Patrol Training Academy, and 
customs and border protection officers are trained by the 
Federal Law Enforcement Training Center.
    But it is no secret that CBP as a whole lacks the manpower 
to fulfill its crucial mission. Currently, there are about 
13,500 Border Patrol officers on the ground and only 18, 000 
customs and border protection officers who are responsible for 
inspections at more than 300 official ports of entry. The 
administration urged for, and the last Congress authorized but 
failed to fund, an additional 10,000 Border Patrol agents. I 
haven't been here more than 6 months, but I know the money is 
always hard to find.
    I was happy to be able to support the fiscal year 2008 
homeland security appropriations bill last week, which provides 
funding for about 3,000 more Border Patrol officers and 400 to 
450 more CBPOs. I am hopeful that we can continue down this 
road in the coming years and fully fund all 10,000 of the new 
positions.
    My constituents are certainly fiscally conservative, and so 
am I, but when they talk with me about immigration reform and 
border security, the cost of training and retaining CBP agents 
is not their primary concern. They want secure borders and the 
peace of mind that comes with them.
    Aside from funding more boots on the ground, we must also 
ensure funding for our Federal law enforcement training 
apparatus. Without adequate training capacity and 
infrastructure, the staffing levels needed to enforce our 
immigration laws and secure our border will simply be 
insufficient.
    Even with the best training, CBP still faces annual 
attrition due to retirements and transfers. This subcommittee 
and the full committee have been continually examining the 
morale problems within DHS, but CBP personnel are so good at 
what they do, they are being recruited to join other law 
enforcement agencies. We have spent enough time and money on 
their training that we must do everything we can in order to 
keep retention up.
    I look forward to hearing from our distinguished witnesses.
    The chair now recognizes the ranking member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. I thank Chairman Carney for holding this 
hearing that I had asked for earlier this year.
    I would like to thank the witnesses for taking the time to 
be with us. I know you are all busy.
    We also are welcoming back to the subcommittee the 
president of NTEU and the president of the National Border 
Patrol Council, who also testified on this very topic 2 years 
ago.
    In 2004, the Congress authorized 2,000 new Border Patrol 
agents for fiscal years 2006 through 2010, for a total of 
10,000 agents over 5 years.
    At that time, I raised concerns that the Department of 
Homeland Security lacked the capacity and the ability to hire 
and train this many agents in such a short period of time. 
Therefore, this subcommittee held a hearing in May of 2005 to 
examine in detail the capacity and cost of training new Border 
Patrol agents.
    At that time, we heard startling testimony from an 
assistant commissioner of Customs and Border Protection who 
said that it cost $179,000 to train, hire, equip and deploy 
just one Border Patrol agent. As a part of its review, the 
subcommittee was informed that the cost per agent could 
actually range from $150,000 to $190,000 per agent. Today, we 
explore whether any progress has been made to rein in those 
costs.
    Also in our 2005 hearing, we heard from the director of 
FLETC that she was confident that the expansion of the Border 
Patrol Training Academy could keep up with the influx of new 
trainees. Last August, I toured the academy at Artesia, New 
Mexico, and found many construction projects under way. Today, 
we will hear about the current capacity of FLETC and how it 
plans to meet this growing Border Patrol training demand.
    In 2005, there were approximately 10,800 Border Patrol 
agents. Today, we are told there are 12,380 agents on board, 
with another 1,250 in training. To meet the president's goal of 
adding 6,000 more new agents over 2 years, it is estimated that 
8,800 will need to be hired during that period.
    We will hear from our witnesses about the challenge in 
hiring and retaining new agents, specifically the extent and 
impact of attrition. We also will hear a private sector 
perspective from the president of the Government Services 
Division of DynCorp International. This company has provided 
personnel for peacekeeping operations worldwide since 1994 and 
currently trains the police in Iraq and Afghanistan for the 
State Department.
    It is critical that we stay on track to deploy the agents 
Congress has authorized to secure our borders as quickly and 
cost-effectively as possible. I look forward to hearing form 
our witnesses how we are doing and what more can be done to 
meet this goal.
    With that, Mr. Chairman, I would ask unanimous consent to 
include in the record a GAO report that I requested on this 
topic.\1\
---------------------------------------------------------------------------
    \1\ See also, GAO Report No. GAO-07-540R Border Training, March 30, 
2007.
---------------------------------------------------------------------------
    Mr. Carney. Without objection, so ordered.
    Mr. Rogers. I yield back.
    Mr. Carney. I thank the gentleman from Alabama.
    Other members of the subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    I welcome the first panel of witnesses.
    Our first witness is Colleen Kelley, president of the 
National Treasury Employees Union. NTEU represents over 150,000 
Federal employees, 15,000 of whom are customs and border 
protection employees within the Department of Homeland 
Security. President Kelley has been an NTEU member since 1974 
and has served in various NTEU chapter leadership positions. 
She was first elected president in August of 1999 and was 
reelected to a second 4-year term in August of 2003.
    Our second witness is T.J. Bonner, who serves as the 
president of the National Border Patrol Council, a position he 
has held since 1989. The National Border Patrol Council is part 
of the American Federation of Government Employees. As 
president of the NBPC, Mr. Bonner represents approximately 
11,000 nonsupervisory Border Patrol employees.
    Our third witness is Robert B. Rosenkranz, senior vice 
president of DynCorp International and president of the 
government services division. His prior employment includes 
positions with DynCorp International predecessor KEI Pearson 
and with Beamhit. Mr. Rosenkranz has a 34-year career in the 
United States Army, retiring with the rank of major general.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with President Kelley.

 STATEMENT OF COLLEEN M. KELLEY, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Carney, Ranking 
Member Rogers, members of the committee. I appreciate the 
opportunity to testify on behalf of customs and border 
protection officers' recruitment, retention and training 
issues.
    Shortly after DHS was created, CBP announced the One Face 
at the Border initiative that combined three different 
inspector occupations--customs, immigration and agriculture--
into one single inspectional position, naming it the Customs 
and Border Protection officer, CBPO. This change in job 
description and job duties resulted in the Herculean task of 
training, retraining and cross-training over 18,000 newly 
created CBPOs.
    This major reorganization of the roles and responsibilities 
of the inspectional workforce at the ports of entry has 
resulted in a huge expansion of skills and duties and has led 
to dilution of the customs, immigration and agriculture 
inspection specializations, weakening the quality of 
inspections.
    The Government Accountability Office has been asked by 
Congress to review this initiative, and I hope that hearings 
will be held on its findings that are due out this fall.
    Under the One Face at the Border initiative, the curriculum 
for new hires at the Federal Law Enforcement Training Center 
has undergone major changes. Prior to the merger, INS trainees 
studied at FLETC for 65 days. Trainees from the former Customs 
Service had a 55-day course, and agriculture inspectors 
received separate specialized training.
    New CBPOs today receive 73 days at FLETC, covering all 
three types of inspections. Upon returning to their assigned 
ports, CBPOs are to continue training through a combination of 
classroom, computer-based and on-the-job training. NTEU 
believes that this continuing training is inadequate. The lack 
of mentoring and insufficient on-the-job training make it 
difficult for CBPOs to become proficient in even one 
concentration, even though they are expected to be proficient 
in all three.
    Almost all training except that received at FLETC and 
firearms training is computer-based. Most of it is to be 
completed by CBPOs using the virtual learning center on the 
Internet, DVDs and videos. No time is specifically allotted for 
CBPOs to view the videos or to sign onto the computer and 
complete the training. CBPOs are expected to squeeze in this 
training in between performing their other administrative 
duties. They often use breaks or their own time before or after 
work.
    Upon completion of a training module, CBPOs are required to 
place a training certificate into their personnel file. This 
certificate states that the CBPO is fully trained on that 
topic. If any problem occurs or mistakes are made, supervisors 
refer to these training certificates and can use them as a 
basis for discipline. CBPOs have twin goals in doing their job: 
antiterrorism and facilitating legitimate trade and travel.
    On the one hand, CBPOs are to fully perform their 
inspection duties, yet at all times they are made aware by 
management of wait times. In land port booths, wait times are 
clearly displayed. At airports, all international arrivals are 
expected to be cleared within 45 minutes. CBP's emphasis on 
reducing wait times without increasing staffing at the ports of 
entry creates an extremely challenging work environment for the 
CBPO.
    It is my understanding that there are currently over 1,000 
CBPO vacancies. Widely reported morale problems at DHS affect 
recruitment and retention and the ability of the agency to 
accomplish its mission. This is a result of longstanding issues 
such as the lack of law enforcement officer status for CBPOs 
that Congress is now trying to address, and new issues such as 
the proposed DHS personnel regulations that would be repealed 
under H.R. 1684.
    Additionally, CBP's unilateral elimination of employee 
input into important workplace issues such as shift schedules 
has had a serious negative impact on morale.
    To ensure well-trained boot on the ground at the 327 ports 
of entry, NTEU recommends the following. First, fill the 
vacancies and increase CBPO staffing. Second, end the One Face 
at the Border initiative. Third, reestablish specialization of 
prior CBPO functions. Four, put into effect an in-depth on-the-
job training plan.
    Five, allot specific times during tours of duty for CBPOs 
to do all assigned computer-based training. Six, require 
structured discussion time with all computer-based training. 
Seven, make available refresher courses to all CBPOs upon 
request. Eight, repeal the DHS personnel flexibility authority. 
Nine, provide LEO coverage for all CBPOs and legacy inspectors. 
And ten, allow employee input into the shift assignment system.
    I urge the committee's continued oversight of both the One 
Face at the Border initiative and the proposed resource 
allocation model that is due this month from CBP.
    I very much appreciate the efforts of this committee, 
particularly on providing law enforcement officer status to 
CBPOs and on repealing DHS's personnel flexibilities. I would 
be happy to answer any questions. Thank you.
    [The statement of Ms. Kelley follows:]

                Prepared Statement of Colleen M. Kelley

    Chairman Carney, Ranking Member Rogers, I would like to thank the 
subcommittee for the opportunity to testify on training of frontline 
Customs and Border Protection Officers (CBPOs) at the Department of 
Homeland Security (DHS). As President of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 18,000 Customs and Border Protection Officers (CBPOs) 
and trade enforcement specialists who are stationed at 327 land, sea 
and air ports of entry (POEs) across the United States. CBPOs make up 
our nation's first line of defense in the wars on terrorism and drugs.
    In addition, Customs and Border Protection (CBP) entry specialists 
and trade compliance personnel enforce over 400 U.S. trade and tariff 
laws and regulations in order to ensure a fair and competitive trade 
environment pursuant to existing international agreements and treaties, 
as well as stemming the flow of illegal contraband such as child 
pornography, illegal arms, weapons of mass destruction and laundered 
money. CBP is also a revenue collection agency, collecting an estimated 
$31.4 billion in revenue on over 29 million trade entries in 2005.

ONE FACE AT THE BORDER INITIATIVE
    As part of the establishment of U.S. Customs and Border Protection 
(CBP) in March 2003, DHS brought together employees from three 
departments of government--Treasury, Justice and Agriculture to operate 
at the 327 Ports of Entry (POEs).
    On September 2,2003, CBP announced the One Face at the Border 
initiative. The initiative was designed to eliminate the pre-9/11 
separation of immigration, customs, and agriculture functions at US 
land, sea and air ports of entry. Inside CBP, three different inspector 
occupations--Customs Inspector, Immigration Inspector and Agriculture 
Inspector duties and responsibilities were combined into a single 
inspectional position--the CBPO.
    The priority mission of the CBPO is to prevent terrorists and 
terrorist weapons from entering the U.S., while simultaneously 
facilitating legitimate trade and travel--as well as upholding the laws 
and performing the traditional missions of the three legacy agencies, 
the U.S. Customs Service, the Immigration and Naturalization Service 
(INS) and the Animal, Plant and Health Inspection Service (APHIS).
    This change in job description and job duties established by the 
One Face at the Border initiative resulted in the Herculean task of 
training, retraining and cross training over 18,000 newly created 
CBPOs. The U.S. Border Patrol was spared this monumental training, 
retraining and cross training need because DHS transferred the U.S. 
Border Patrol Service as an intact unit within CBP and did not 
integrate the Border Patrol Agent position with the three inspectional 
positions working at the ports.
    In practice, the major reorganization of the roles and 
responsibility of the inspectional workforce as a result of the One 
Face at the Border initiative has resulted in job responsibility 
overload and dilution of the customs, immigration and agriculture 
inspection specialization and in weakening the quality of passenger and 
cargo inspections.
    The processes, procedures and skills are very different at land, 
sea and air ports, as are the training and skill sets needed for 
passenger processing, cargo and agriculture inspection. Under One Face 
at the Border, former INS agents that are experts in identifying 
counterfeit foreign visas are now at seaports reviewing bills of lading 
from foreign container ships, while expert seaport Customs inspectors 
are now reviewing passports at airports.
    It is apparent that CBP sees its One Face at the Border initiative 
as a means to ``increase management flexibility"without increasing 
staffing levels. According to CBP, ``there will be no extra cost to 
taxpayers. CBP plans to manage this initiative within existing 
resources. The ability to combine these three inspectional disciplines 
and to cross-train frontline officers will allow CBP to more easily 
handle projected workload increases and stay within present budgeted 
levels.''
    This has not been the case. The knowledge and skills required to 
perform the expanded inspectional tasks under One Face at the Border 
have also increased the workload of the CBPO. Also lacking in the 
actual implementation of One Face at the Border is the ability to 
consistently practice in doing the job. Practice at doing a job is what 
makes a worker better at that job. A lawyer specializes in litigation, 
contracts, family law or one of many specialties. A doctor specializes 
in general medicine, surgery or one of many specialties. The CBPO has 
no opportunity to develop a specialty now.
    The CBPO is a generalist and is rotated from seaport cargo 
inspection to land port vehicle processing to airport passenger 
processing. The CBPO must know the laws and duties of all of these 
specialized inspection processing systems. The CBPO is responsible for 
ensuring nothing and no one gets through the port that threatens the 
health, safety and security of the U.S. population, while at the same 
time facilitating legal trade and travel. It is a heavy load that has 
been demanded of these men and women.
    Congress has some understanding that the security of the ports of 
entry is dependent on transforming specialized immigration, customs and 
agriculture inspectors into CBPO generalists under the One Face at the 
Border initiative. That is why Congress requested that the Government 
Accountability Office (GAO) evaluate the One Face at the Border 
initiative and its impact on legacy customs, immigration and 
agricultural inspection and workload. It is my understanding that GAO's 
final report on the One Face at the Border initiative will be issued 
this fall. NTEU strongly urges the Committee to hold hearings on the 
content and recommendations contained in the final GAO One Face at the 
Border report.
    Also, the Homeland Security Appropriations Committee added report 
language to the FY 2007 DHS Appropriations bill that, with regard to 
CBP's One Face at the Border initiative, directs ``CBP to ensure that 
all personnel assigned to primary and secondary inspection duties at 
ports of entry have received adequate training in all relevant 
inspection function.'' It is my understanding that CBP has not reported 
to DHS Appropriators pursuant to this language.

Training of New CBPOs:
    With the implementation of the One Face at the Border initiative, 
the curriculum for new hires at the Federal Law Enforcement Training 
Center (FLETC) in Glynco, Georgia has undergone major changes. Prior to 
the merger, INS trainees studied at FTETC for 65 days. Trainees from 
the former Customs Service had a 55-day course at FLETC. Unlike Customs 
and Immigration Inspectors who all attended basic Academy training at 
FLETC, Agriculture Inspectors have a different background; those 
Agriculture Inspectors who became CBPOs were required to complete the 
same basic training course as a new CBPO hire.
    New CBPOs receive 73 days of FLETC training on all three types of 
inspection. ``Upon returning to their assigned port, they will be 
trained for the next year by a combination of classroom, computer 
based, and OJT training.'' The most critical part of this training is 
the year of on-the-job (OTJ) training to teach specialized information.
    This OJT training phase is not being adequately done. Many new 
CBPOs report that few of them have received extensive post-academy 
training yet are assigned to the primary passenger processing line. 
Inadequate mentoring and OTJ training make it difficult for CBPOs to 
become proficient in even one job while they are expected to be 
proficient at three.

Cross-training of Legacy Inspectors:
    The three disciplines' skill sets--immigration, customs, and 
agriculture are highly specialized and require in-depth training and 
on-the-job experience. Agriculture specialists have a science 
background, immigration officers are trained to recognize suspect 
documents and customs officers are trained to identify counterfeit 
goods, drug smugglers and look for suspect passenger behavior at the 
airports and suspect product at the ports.
    CBPOs that have been given cross-training have reported to NTEU 
that training is inadequate in time, resources and mentoring. According 
to CBP, all cross-training has been provided via video, CD-ROMIWeb, 
classroom instruction, on the job training (OJT), or a combination of 
these methods. With limited exceptions, all of the training is provided 
at the CBPOs' post-of-duty.
    For legacy inspectors, the training both in class, computer based 
and on-the-job is totally inadequate. According to CBP, all legacy 
Customs and CBPOs had mandatory training on Immigration Fundamentals. 
``It will be delivered during Officers' normal tour of duty in the form 
of eight electronic 45-minute lessons, after which the employee will be 
tested to ensure comprehension. A passing grade on the review is a 
prerequisite to taking the training for Full Unified Primary 
inspections.''
    This is a typical story about this training from legacy inspectors:
    ``I took the immigration class in January of 2005 and have not been 
in a booth since. That is until I was told 3 weeks ago to go upstairs 
and get in the booth. I told the supervisor that I could not do it 
because I do not remember the training as it had been almost a year. 
She told me that she would put me with another inspector who would 
watch me for about 30 minutes and then I should be good to go on my 
own. After speaking with the experienced legacy INS inspector in the 
booth about how I was doing she changed her mind when he told her I was 
screwing up everything. CBP must create a refresher class for us or we 
will wind up screwing up and getting fired. I feel we are being fed to 
the lions.''

The Computer-based training Process:
    Almost all training outside of training received at FLETC and 
firearms recertification and safety training is computer based. 
Training is supposed to be completed by CBPOs using the Virtual 
Learning Center on the intranet, DVDs and videos. No time is 
specifically allotted for CBPOs to view the videos or sign on to the 
computer and complete the training. CBPOs are expected to squeeze this 
training in on their breaks, and in-between performing other 
administrative duties, or on their own time before or after work. If 
intempted, some of these modules require them to start again at the 
beginning; others allow for picking up at the screen that they left 
off.
    Upon completion of the training module, CBPOs are required to input 
completion data into the Training Record and Enrollment Network 
(TRAEN). This certificate states that the CBPO is fully trained on that 
topic. If any problem occurs or mistakes are made, supervisors pull out 
these training certificates and use them as a basis for discipline.
    Some training modules refer to allotting time for a structured 10 
to 15 minute discussion upon completion of the module. Rarely does this 
happen. There usually is no interaction with their supervisor on module 
content, nor are there any structured discussion or question and answer 
sessions following completion of the training video.
    For example, on 2/25/2004, CBP notified NTEU that ``CBP will be 
providing Bio/Agroterrorism training to all CBPOs and Agriculture 
Specialists. It will be delivered during employees' normal tour of duty 
via a 20-minute video, with 10--15 minutes allotted for structured 
discussion.'' I have heard that at most ports; the 10--15 minute 
structured discussion did not take place.

CBP Emphasis on Wait Times:
    Currently, there are thousands of different documents that a 
traveler can present to CBPOs when attempting to enter the United 
States, creating a tremendous potential for fraud. Each day CBPOs 
inspect more than 1.1 million passengers and pedestrians, including 
many who reside in border communities who cross legally and contribute 
to the economic prosperity of our country and our neighbors. At the 
U.S. land borders, approximately two percent of travelers crossing the 
border are responsible for nearly 48 percent of all cross-border trips.
    In FY 2005, over 84,000 individuals were apprehended at the ports 
of entry trying to cross the border with fraudulent claims of 
citizenship or documents. On an average day, CBP intercepts more than 
200 fraudulent documents, arrests over sixty people at ports of entry, 
and refuses entry to hundreds of non-citizens, a few dozen of which are 
criminal aliens that are attempting to enter the U.S.
    CBPOs have ``Twin Goals'' in doing their job--Anti-Terrorism and 
Facilitating Legitimate Trade and Travel. CBP's priority mission is 
preventing terrorists and terrorist weapons from entering the United 
States, while also facilitating the flow of legitimate trade and 
travel. CBP's emphasis on reducing wait times without increasing 
staffing at the ports of entry creates a challenging work environment 
for the CBPO. On the one hand, CBPOs are to fully perform their 
inspection duties, yet at all times they are made aware by management 
of wait times. In land port booths, wait times are clearly displayed. 
At airports, all international arrivals are expected to be cleared 
within 45 minutes or a visual alert is displayed at headquarters and 
local management is notified. CBP's website posts wait times at every 
land port and allows travelers to check airport wait times by location.
    Most travelers enter the U.S. through the nation's 166 land border 
ports of entry (POEs). About two-thirds involve aliens and about one-
third involve returning U.S. citizens. The vast majority arrive by 
vehicle. The purpose of the primary inspection process is to determine 
if the person is a U.S. citizen or alien, and if alien, whether the 
alien is entitled to enter the U.S. In general, CBPOs are to question 
travelers about their nationality and purpose of their visit, whether 
they have anything to declare, and review any travel documents the 
traveler may be required to present.
    At the land ports, primary inspections are expected to be conducted 
in less than one minute. Travelers routinely spend about 45 seconds at 
U.S.-Canadian crossings during which CBPOs have to assess oral claims 
of citizenship in the United States or Canada.
    When CBPOs are viewing documents and questioning individuals for 
less than one minute, how much attention can realistically be put into 
examining the documents, verifying that the person presenting the 
document is the actual owner of the document, and determine that the 
vehicle may or may not be carrying drugs or other illegal items?
    Each day, CBPOs at 327 crossings process 1.1 million inbound 
travelers, 327,500 private vehicles and 85,300 shipments of goods. 
Eight thousand forms of driver's licenses, birth certificates, baptism, 
or hospital records can be presented under existing rules. U.S. 
citizens are not required to show any documentation to enter the U.S. 
and need only make a declaration. If a person declares that they are a 
U.S. Citizen, CBPOs are limited in what we can ask to determine if they 
are telling the truth. Many complaints are lodged when CBPOs ask for 
documentation.
    At the airports, CBPOs are expected to clear international 
passengers within 45 minutes. Prior to 9/11 there was a law on the 
books requiring INS to process incoming international passengers within 
45 minutes. The Enhanced Border Security and Visa Protection Act of 
2002 repealed the 45 minute standard, however ``it added a provision 
specifying that staffing levels estimated by CBP in workforce models be 
based upon the goal of providing immigration services within 45 
minutes. According to GAO, ``the number of CBP staff available to 
perform primary inspections is also a primary factor that affects wait 
times at airports.''
    It has also come to NTEUYs attention that the U.S. Travel and 
Tourism industry has called for a further reduction in passenger 
clearance time to 30 minutes. The industry's recently announced plan, 
called ``A Blueprint to Discover America,'' includes a provision for 
``modernizing and securing U.S. ports of entry by hiring customs and 
border [protection] officers at the top 12 entry ports to process 
inbound visitors through customs within 30 minutes." This CANNOT be 
achieved at current staffing levels without jeopardizing security.
    The emphasis on passenger processing and reducing wait times 
results in limited staff available at secondary to perform those 
inspections referred to them. NTEU has noted the diminution of 
secondary inspection in favor of passenger facilitation at primary 
inspection since the creation of the Department of Homeland Security. 
Why has there been this decrease in secondary inspections? NTEU 
believes that it is because of the large number of CBPO job vacancies 
and static overall CBPO staffing levels.

Staffing Shortages at the Ports of Entry:
    The President's FY 2008 budget proposal requests $647.8 million to 
fund the hiring of 3000 Border Patrol agents. But, for salaries and 
expenses for Border Security, Inspection and Trade Facilitation at the 
327 POEs, the President's funding request is woefully inadequate.
    The President's FY 2008 budget calls for an increase of only $8.24 
million, for annualization of 450 CBPOs appropriated in the FY 2007 DHS 
Appropriations bill. NTEU is extremely grateful that Congress included 
funding for an additional 450 CBPOs in the FY 2007 DHS Appropriations 
bill.
    In addition, the Emergency Supplemental Appropriations bill for 
fiscal year ending September 30,2007, recently signed into law, 
``recommends an additional $1 00,000,000 to improve significantly the 
ability of CBP to target and analyze US-bound cargo containers, achieve 
a capacity to screen 100 percent of such cargo overseas, and double the 
number of containers that are subject to physical inspections. The 
funding would support hiring up to 1,000 additional CBP Officers, 
Intelligence Analysts and support staff, to be located at Container 
Security Initiative locations overseas, U.S. ports of entry, or the 
National Targeting Center.''
    In addition, the SAFE Port Act authorizes CBP to hire a minimum of 
200 additional CBP Officers in FY 2008 for ports of entry around the 
nation and the House Appropriations Committee funded 450 additional 
CBPO positions in the DHS FY 2008 funding bill.
    There is concern among CBPOs, however, that in terms of real 
numbers CBP has hired more new managers than frontline workers. 
According to GAO, the number of CBPOs has increased from 18,001 in 
October 2003 to 18,382 in February 2006, an increase of 381 officers. 
In contrast, GS 12-15 CBP supervisors on board as of October 2003 were 
2,262 and in February 2006 there were 2,731, an increase of 462 
managers over the same of time. This is a 17 % increase in CBP managers 
and only a 2% increase in the number of frontline CBPOs. (See 
attachment 1)
    There is also much concern that because of CBPO job vacancies, 
today the number of CBPOs on board and working at the POEs is less than 
the 18,001 CBPOs on board in October 2003.
    According to the Government Accountability Office (GAO) Report 
(GAO-05- 663), International Air Passengers Staffing Model for Airport 
Inspections Personnel Can Be Improved, there is much evidence that 
airports are continuing to experience staffing shortages. Also, some 
land ports are experiencing staffing shortages that have resulted in 
compelled overtime.
    In order to assess CBPO staffing needs, Congress, in its FY 07 DHS 
appropriations conference report, directed CBP to submit by January 
23,2007 a resource allocation model for current and future year 
staffing requirements. Specifically, this report should assess optimal 
staffing levels at all land, air and sea ports of entry and provide a 
complete explanation of CBP's methodology for aligning staffing levels 
to threats, vulnerabilities, and workload across all mission areas.'' 
It is NTEU's understanding that, to date, the Appropriations Committee 
has not received this report from CBP.
    Congress also mandated CBP to perform a Resource Allocation Model 
in Section 402 of the SAFE Port Act. The CBP Resource Allocation Model 
(RAM) is due this month, June 2007. NTEU urges Committee hearings to 
review the findings of the CBP RAM.
    It is instructive here to note that the former U.S. Customs 
Service's last internal review of staffing for Fiscal Years 2000--2002 
dated February 25,2000 also known as the 2000--2002 RAM, shows that the 
Customs Service needed over 14,776 new hires just to fulfill its basic 
mission-and that was before September 11. Since then the Department of 
Homeland Security was created and the U.S. Customs Service was merged 
with the Immigration and Naturalization Service and parts of the 
Agriculture Plant Health Inspection Service to create Customs and 
Border Protection and given an expanded mission of providing the first 
line of defense against terrorism, in addition to making sure trade 
laws are enforced and trade revenue collected.

RECRUITMENT AND RETENTION ISSUES
    In February of this year, DHS received the lowest scores of any 
federal agency on a survey for job satisfaction, leadership and 
workplace performance. Of the 36 agencies surveyed, DHS ranked 36th on 
job satisfaction, 35th on leadership and knowledge management, 36th on 
results-oriented performance culture, and 33rd on talent management. As 
I have stated previously widespread dissatisfaction with DHS management 
and leadership creates a morale problem that affects recruitment and 
retention and the ability of the agency to accomplish its mission.
    In 2004, an OPM survey of federal employees revealed that employees 
rated DHS 29th out of 30 agencies considered as a good place to work. 
On key areas covered by the survey, employees' attitudes in most 
categories were less positive and more negative than those registered 
by employees in other federal agencies. Employee answers on specific 
questions revealed that 44% of DHS employees believe their supervisors 
are doing a fair to a very poor job; less than 20% believe that 
personnel decisions are based on merit; only 28% are satisfied with the 
practices and policies of senior leaders; 29% believe grievances are 
resolved fairly; 27% would not recommend DHS as a place to work; 62% 
believe DHS is an average or below average place to work; only 33% 
believe that arbitrary action, favoritism, and partisan political 
action are not tolerated; over 40% are not satisfied with their 
involvement in decisions that affect their work; 52% do not feel that 
promotions are based on merit; and over 50% believe their leaders do 
not generate high levels of motivation and commitment. On the other 
hand, most employees feel there is a sense of cooperation among their 
coworkers to get the job done.
    The 2006 Federal Human Capital Survey ratings were released in 
January 2007 and not much has changed. Nearly 10,400 Homeland Security 
employees participated in the survey and gave the department rock-
bottom scores in key job satisfaction, leadership and management areas 
in relation to 35 other agencies in the survey. Of the 36 agencies 
surveyed, DHS ranked 36th on job satisfaction, 35th on leadership and 
knowledge management, 36th on results-oriented performance culture, and 
33rd on talent management.
    According to OPM, 44 percent of all federal workers and 42 percent 
of non-supervisory workers will become eligible to retire within the 
next five years. If the agency's goal is to build a workforce that 
feels both valued and respected, the results from the OPM survey raises 
serious questions about the department's ability to recruit and retain 
the top notch personnel necessary to accomplish the critical missions 
that keep our country safe.

DHS Human Resources System:
    NTEU continues to have concerns about funding priorities at DHS. On 
March 7, 2007, DHS announced that it will put into effect portions of 
its compromised personnel system. Just a few weeks earlier, DHS 
outlined plans to move slower on its controversial personnel overhaul, 
formerly known as MaxHR, but now called the Human Capital Operations 
Plan. The President's FY 2008 budget calls for only $15 million to fund 
the renamed MaxHR personnel plan.
    In July 2005, a U.S. District Court for the District of Columbia 
ruled that portions of the proposed DHS personnel regulations infringed 
on employees' collective bargaining rights, failed to provide an 
independent third-party review of labor-management disputes and lacked 
a fair process to resolve appeals of adverse management actions. The 
Appellate Court rejected DHS appeal of this District Court decision and 
DHS declined to appeal the ruling to the Supreme Court.
    In a number of critical ways, the personnel system established by 
the Homeland Security Act and the subsequent regulations issued by the 
Department of Homeland Security (DHS) have been a litany of failure 
because the law and the regulations effectively gut employee due 
process rights and put in serious jeopardy the agency's ability to 
recruit and retain a workforce capable of accomplishing its critical 
missions.
    When Congress passed the Homeland Security Act in 2002 (HSA), it 
granted the new department very broad discretion to create new 
personnel rules. It basically said that DHS could come up with new 
systems as long as employees were treated fairly and continued to be 
able to organize and bargain collectively. The regulations DHS came up 
with were subsequently found by the Courts to not even comply with 
these two very minimal and basic requirements.
    With the abysmal morale and extensive recruitment and retention 
challenges at DHS, implementing these personnel changes now will only 
further undermine the agency's employees and mission. From the 
beginning of discussions over personnel regulations with DHS more than 
four years ago, it was clear that the only system that would work in 
this agency is one that is fair, credible and transparent. These 
regulations promulgated under the statute fail miserably to provide any 
of those critical elements. It is time to end this flawed personnel 
experiment.
    It has become clear to the Committee that the Department of 
Homeland Security has learned little from these Court losses and 
repeated survey results and will continue to overreach in its attempts 
to implement the personnel provisions included in the Homeland Security 
Act of 2002. On May 11,2007, the full House approved H.R.1648, the FY 
2008 DHS Authorization bill that includes a provision that repeals the 
DHS Human Resources Management System. This past Friday, June 15,2007 
the full House approved H.R. 2638, the fiscal 2008 DHS Appropriations 
bill that zeros out all funding for MaxHR. Senate action on both these 
measures is pending.
    DHS employees deserve more resources, training and technology to 
perform their jobs better and more efficiently. DHS employees also 
deserve personnel policies that are fair. The DHS personnel system has 
failed utterly and should be repealed by the full Congress. Continuing 
widespread dissatisfaction with DHS management and leadership creates a 
morale problem that affects the safety of this nation.

Law Enforcement Officer Status:
    The most significant impediment to recruitment and retention of 
CBPOs is the lack of law enforcement officer (LEO) status. LEO 
recognition is of vital importance to CBPOs. CBPOs perform work every 
day that is as demanding and dangerous as any member of the federal law 
enforcement community, yet they have long been denied LEO status.
    Within the CBP there are two classes of federal employees, those 
with law enforcement officer status, Border Patrol Agents, and those 
without. Unfortunately, CBPOs fall into the latter class and are denied 
benefits given to other federal employees in CBP.
    CBPOs carry weapons, and at least three times a year, they must 
qualify and maintain proficiency on a firearm range. This tri-annual 
firearms training and recertification also includes classes in arrest 
techniques and self defense tactics training, and defensive and 
restraint techniques. CBPOs are issued weapons (24-hour carry), body 
armor, pepper spray and batons. For the most part, CBPOs believe that 
firearms' training is adequate. When CBP changed the make of firearms 
from one manufacturer to another, at the CBPOs request, NTEU protested 
that the four hour training session on the new weapon was not adequate. 
CBP addressed NTEU's members concerns by expanding training on the new 
firearm to eight hours.
    CBPOs have the authority to apprehend and detain those engaged in 
smuggling drugs and violating other civil and criminal laws. They have 
search and seizure authority, as well as the authority to enforce 
warrants. All of which are standard tests of law enforcement officer 
status.
    Every day, CBPOs stand on the front lines in the war to stop the 
flow of drugs, pornography and illegal contraband into the United 
States. It was a legacy Customs Inspector who apprehended a terrorist 
trying to cross the border into Washington State with the intent to 
blow up Los Angeles International Airport in December 1999. Every day, 
CBPOs detain criminals attempting to enter or leave the country through 
the ports.
    For example, on June 5th, the El Paso Times reported that ``Customs 
and Border Protection officers stopped a Kansas man wanted for murder 
and rape Friday afternoon at the Zaragoza Bridge, agency officials 
said.
    Anthony Javier Llamas, 21, was crossing the bridge in a 2000 
Mercury Cougar with three other occupants when an officer checked for 
warrants and discovered an ``armed and dangerous'' alert for Llamas.
    Llamas is wanted in Kansas in connection with a May 15 killing in 
Wichita and on an unrelated rape charge, officials said.''
    CBPOs clearly deserve LEO status. For this reason, legislation has 
been introduced to amend the definition of law enforcement officer, 
H.R. 1073, the Law Enforcement Officers Equity Act of 2007. NTEU 
strongly supports ths bipartisan legislation introduced by 
Representatives Bob Filner (D-CA) and John McHugh (R-NY) which has 97 
cosponsors to date. This legislation would treat CBPOs and legacy 
Customs and Immigration Inspectors and Canine Enforcement Officers as 
law enforcement officers for the purpose of 20-year retirement.
    On May 1 1,2007, the House of Representatives approved H.R. 1684 
that included Section 501, a provision that grants LEO status to CBPOs 
as of the creation of CBP in March 2003. CBPOs are extremely grateful 
for this recognition of their law enforcement activities at CBP. 
Unfortunately, Section 501 does not recognize previous law enforcement 
service in the legacy agencies that were merged to create CBP. 
Therefore, in order for CBPOs with legacy service to qualify for the 
enhanced LEO retirement benefit, they must serve an additional 20 years 
starting in March 2003.
    The Committee is sympathetic to this unfortunate consequence of 
Section 501 and is working with NTEU on hybrid-LEO coverage proposals 
that would mitigate ths result.
    Section 501 is a start. It is a breakthrough in that Congress 
recognizes that CBPOs should have LEO coverage and NTEU members are 
very appreciative of the Committee's efforts.

Work Shift Schedules:
    Another major factor that has hindered recruitment and retention of 
CBPOs is work shift determinations. In the past, the agency had the 
ability to determine what the shift hours will be at a particular port 
of entry, the number of people on the shift, and the job qualifications 
of the personnel on that shift. The union representing the employees 
had the ability to negotiate with the agency, once the shift 
specifications are determined, as to which eligible employees will work 
which shift. This was determined by such criteria as seniority, 
expertise, volunteers, or a number of other factors.
    CBP Officers around the country have overwhelmingly supported this 
method for determining their work schedules for a number of reasons. 
One, it provides employees with a transparent and credible system for 
determining how they will be chosen for a shift. They may not like 
management's decision that they have to work the midnight shift but the 
process is credible and both sides can agree to its implementation. 
Two, it takes into consideration lifestyle issues of individual 
officers, such as single parents with day care needs, employees taking 
care of sick family members or officers who prefer to work night 
shifts. CBP's unilateral elimination of employee input into this type 
of routine workplace decision-making has had probably the most negative 
impact on employee morale.
    A real life example of CBP's management insensitivity in scheduling 
work occurred recently at a large airport. Due to a mistake by 
management, two CBPOs who are married and have an 11 year old child 
were both scheduled to work during the early morning shift for the 
coming pay period, forcing them to scramble for child care coverage 
between the hours of 4:30 am and the start of school. The couple only 
recently moved to the area, and did not have family nearby. When this 
matter was brought to management's attention, the Port Director would 
not take any action to help the family. Clearly, this is exactly the 
kind of situation that contributes to retention problems at CBP.
    This is not an isolated incident. The ``command and control'' 
attitude of CBP management has created a work environment that is 
reflected in the dismal DHS showing in the OPM federal jobs survey.
    NTEU urges the Committee to look at CBPO attrition and vacancy 
rates. I believe that CBPOs are quitting or retiring in large numbers 
due to many of the problems I have cited.

NTEU RECOMMENDATIONS
    To ensure well-trained boots on the ground at the POEs, NTEU 
recommends the following:
        1. Fill vacancies and increase CBPO staffing;
        2. End the failed One Face at the Border initiative;
        3. Reestablish specialization of prior CBPO functions;
        4. Put into effect an in-depth on the job training plan;
        5. Allot specific times during tours of duty for CBPOs to do 
        all assigned computer-based training;
        6. Structured discussion time must accompany all computer-based 
        training;
        7. Refresher courses should be available to all CBPOs upon 
        request;
        8. Repeal the DHS personnel regulations;
        9. Comprehensive LEO coverage for all CBPOs and legacy 
        inspectors; and
        10. Allow employee input in shift assignment system.

CONCLUSION
    CBP employees represented by NTEU are capable and committed to the 
varied missions of DHS from border control to the facilitation of trade 
into and out of the United States. They are proud of their part in 
keeping our country free from terrorism, our neighborhoods safe from 
drugs and our economy safe from illegal trade.
    The American public expects its borders and ports be properly 
defended. Congress must show the public that it is serious about 
protecting the homeland by fully funding CBP staffing needs, extending 
LEO coverage to all CBPOs, ending the One Face at the Border 
initiative, reestablishing CBPO inspection specialization at our 327 
POEs and repealing the compromised DHS personnel system.
    I urge each of you to visit the land, sea and air ports of entry in 
your home districts. Talk to the CBPOs, canine officers, and trade 
entry and import specialists there to fully comprehend the jobs they do 
and what their work lives are like.
    Again, I would like to thank the committee for the opportunity to 
be here today on behalf of the 150,000 employees represented by NTEU to 
discuss these extremely important federal employee issues.
Attachment I

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carney. Thank you for your testimony, President Kelley.
    I now recognize Mr. Bonner to summarize his statement for 5 
minutes.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
      COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Bonner. Thank you, Chairman Carney, Ranking Member 
Rogers, other members of the subcommittee.
    On behalf of the 11,000 frontline Border Patrol agents, we 
have some concerns about the training efforts that are under 
way right now, to bring on so many people in such a short time. 
As Mr. Rogers noted, back in 2004, Congress authorized the 
addition of 2,000 agents a year over a span of 5 years. At that 
point in time, that goal was achievable.
    Now, we approach the 11th hour and there is a rush to bring 
on an additional 5,000 agents, which will require the hiring of 
perhaps as many as 9,000 employees in the span of 18 months. 
Every major police department that has undergone even less 
ambitious recruitment campaigns has suffered the consequences. 
Corruption has increased. Officers have been poorly trained, 
and the level of confidence that the public has in that 
department has decreased dramatically.
    I don't want to see the same thing happen to the United 
States Border Patrol. There is no magic number to achieve 
border security. It is not 18,000, even if there were such a 
number. The number would be far greater than that. This is 
something that the president is pushing for in the span of his 
administration, but I think we need to step back and take a 
close look at this and see if it is a wise, achievable goal. I 
believe it is not.
    Too many corners will have to be cut in order to attain the 
goal of 18,000 agents by the end of 2008. We have already seen 
a reduction of 2 weeks at the Border Patrol Academy. Further 
reductions are planned. Another 3 weeks is being talked about 
being removed. For employees who demonstrate proficiency in the 
Spanish language, another 8 weeks would be removed.
    In other words, some employees would be back on the line 
after merely 6 weeks in the Border Patrol Academy. This, in the 
estimation of the frontline agents who are the ones responsible 
for providing the on-the-job training, is insufficient. They 
need more time at the academy. They need more instruction. The 
curriculum at the academy was not established on a whim. It was 
established based on a lot of experience as to what people need 
to be taught in an academy setting.
    Then, of course, there is the challenge of providing one-
on-one mentoring. When you dump that many people into an 
organization that is relatively small, essentially you are 
taxing it beyond its capability to function properly. There is 
on way that you can provide that one-on-one mentoring. In some 
cases in the past, we have had one-on-twelve mentoring. That is 
simply unacceptable.
    We have morale problems causing attrition at an 
unacceptably high rate. It is approaching 12 percent. Now, the 
administration will try and claim that this number is lower 
than 12 percent because they exclude people who leave within 
the first 18 months of their employment, and they also exclude 
people who transfer to other components of the Department of 
Homeland Security. When you are trying to increase the size of 
the Border Patrol, you have to factor in every person who 
leaves the Border Patrol because they all have to be replaced.
    Some would suggest that private corporations are better 
suited to do this job. The National Border Patrol Council 
disagrees. People who have been there and done that are in the 
best position to impart the knowledge and the skills necessary 
to do the job.
    On behalf of the frontline employees, we implore you to 
take a close look at this, slow this process down so that we 
get it right. There is an old saying that there never seems to 
be enough time to do something right, but there is always 
enough time to do it over. Let's get it right the first time. 
We need properly trained people. Absolutely we need border 
security, but border security is not a function of the number 
of agents on the line.
    Let me posit this definition of ``border security.'' Border 
security means that no person or no thing enter this country 
without our permission. When we reach that goal, then we have 
true border security, not when we have 18,000 Border Patrol 
agents or 180,000 Border Patrol agents, but when we are 
effectively controlling the border.
    One other quick point--in order to do that, we need to 
crack down on the employers because we could increase the 
number of agents ten-fold and desperate people will still come 
across as long as they can find work in this country.
    Thank you, and I would be happy to answer any questions you 
might have.
    [The statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

    The National Border Patrol Council appreciates this opportunity to 
share the views and recommendations of the 11,000 front-line Border 
Patrol employees that it represents regarding the challenges posed by 
recent efforts to significantly increase the size of the Border Patrol.
    It is quite obvious that our Nation's borders are out of control. 
In any given year, the Border Patrol apprehends about one million 
people attempting to illegally enter our country, and front-line agents 
estimate that about two to three times that number slip by them. 
Currently, somewhere between 12 and 20 million illegal aliens are 
residing in the United States.
    In recognition of this crisis, Section 5202 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 authorized the addition of 
at least 2,000 Border Patrol agents per year over the five-year span 
from 2006 to 2010. Sadly, the Administration's budget request for the 
first of those years only requested funding for 210 positions. 
Fortunately, Congress ignored that request and funded a total of 1,500 
additional agents.
    In May of last year, President Bush announced with a great deal of 
fanfare that he was committed to increasing the size of the Border 
Patrol to slightly more than 18,000 agents by the end of next year. 
While these additional resources are desperately needed, the wisdom of 
adding so many new agents in such a short period of time is 
questionable. Every sizeable law enforcement agency that has ever 
engaged in an overambitious recruitment program has suffered the 
inevitable consequences of increased corruption and attrition, as well 
as poorly-trained new officers, with a resultant loss of public 
confidence. This occurred because these agencies were forced by 
artificial time constraints to relax hiring standards and cut corners 
in the screening and training processes. These same types of shortcuts 
have already been implemented in the recruiting and training of Border 
Patrol agents, and there is no reason to expect that the outcome in 
this case will be any different from the experiences of those other 
agencies.
    Realistically, there is no magic number of Border Patrol agents 
required to secure our borders, and even there were, it would certainly 
be much higher than the 18,000 proposed by the Administration. The goal 
of border security can only be attained by means of an all-encompassing 
enforcement strategy that simultaneously focuses resources and efforts 
on the border and the interior. The single most important step that 
must be taken is the elimination of the employment magnet that entices 
millions of people to violate our immigration laws every year. Once 
people enter this country illegally, it is incredibly easy for them to 
obtain a job. In order to fix this problem, a system must be put in 
place that makes it simple for employers to determine who is authorized 
to work in this country, and ensures that those employers who do not 
comply with the law are severely punished. H.R. 98, the ``Illegal 
Immigration Enforcement and Social Security Protection Act of 2007,'' 
meets these objectives. It would require every job applicant to present 
a counterfeit-proof Social Security card containing a recent digital 
photograph and encrypted biometric information, and would mandate that 
every employer verify the authenticity of such documents by passing 
them through an electronic reader.
    While an effective workplace enforcement system would dramatically 
change the dynamic at the border by discouraging millions of laborers 
from illegally crossing, it would do nothing to deter the tens of 
thousands of criminals and handful of terrorists who attempt to enter 
our country illegally every year. With proper types of surveillance 
technology and barriers at the border, however, the odds of 
apprehending these criminals and terrorists would be greatly enhanced. 
This assumes, of course, that the Border Patrol has sufficient 
staffing, and that these employees are provided with the proper tools, 
training, and support. Otherwise, our borders will remain porous and 
vulnerable. In order to maintain adequate levels of staffing, measures 
must be taken to transform the Border Patrol into an organization that 
is capable of attracting and retaining the best and brightest. Although 
that once was the case, it is no longer true. For a variety of reasons, 
morale has plummeted and attrition has soared to 12%.\1\ Unless these 
disturbing trends are quickly reversed, it will be impossible to 
recruit and retain large numbers of additional Border Patrol agents. 
Thus, before discussing changes that need to be made in the hiring and 
training processes, it is important to understand the problems that 
cause employees to leave the agency. It is senseless to spend millions 
of dollars recruiting and training individuals who will depart after a 
short period of time.
---------------------------------------------------------------------------
    \1\ Any claims by the agency that the attrition rate is lower are 
disingenuous. Its attrition figures often exclude employees who leave 
during their first 18 months, as well as those who transfer to other 
components of the Department of Homeland Security. It is clear, 
however, that every person who leaves the Border Patrol for any reason 
must be replaced in order to reach and maintain a numeric goal.
---------------------------------------------------------------------------
    Without question, the greatest sources of frustration among front-
line employees are the policies that interfere with the accomplishment 
of the mission. These include:
        <bullet> The ``strategy of deterrence'' that forces agents to 
        maintain fixed positions and does not allow them to pursue 
        intruders who circumvent those positions.
        <bullet> The diversion of scarce resources from the border to 
        traffic checkpoints, to the detriment of the agency's 
        capability to apprehend people at the border. (Traffic 
        checkpoints have a legitimate backup role, but should never be 
        relied upon as the primary means of intercepting terrorist, 
        criminals, illegal aliens, and contraband.)
        <bullet> The vehicle pursuit policy that does not allow agents 
        to stop vehicles that break any traffic laws unless they have 
        supervisory approval to do so. Such approval is rarely granted.
        <bullet> Arbitrary reductions in the amount of overtime that 
        can be worked, further decreasing the agency's ability to 
        accomplish its mission.
        <bullet> A lack of critical infrastructure, including adequate 
        facilities, communications capabilities, and useful equipment. 
        At the same time, billions of dollars are being expended on 
        projects of dubious utility.
    Systemic problems with the organization also contribute to the low 
morale of employees. The transfer of the Border Patrol into the Bureau 
of Customs and Border Protection was ill-advised from the outset, and 
the situation has deteriorated with the passage of time. In order to 
maximize its effectiveness, the Border Patrol should be an independent 
component of the Department of Homeland Security. Moreover, it needs to 
be divorced from the politics of immigration. Law enforcement agencies 
should never be allowed to become offshoots of the Executive Branch's 
political agenda. They must be allowed to function independently, and 
to objectively enforce all of the laws on the books.
    Almost all of the emphasis during this recent hiring push has been 
on recruitment, with very little attention paid to the retention of 
experienced agents. This is a very serious oversight. Unless the agency 
addresses the underlying causes of dissatisfaction, employees will 
continue to leave at an alarmingly high rate. The agency therefore also 
needs to utilize existing statutory authority to pay retention and 
other types of bonuses to entice employees to stay.
    Significant increases in the number of Border Patrol agents must 
also be accompanied by a commensurate growth in the infrastructure that 
supports them. Adequate equipment, facilities, and support personnel 
are all necessary in order to ensure that the front-line agents are 
able to effectively carry out the mission of the agency. Currently, 
there are serious deficiencies in all of these areas. These additional 
expenses must be factored not only into the cost of hiring new 
employees, but also into upgrading support for current employees.
    Some of the problems that exist in the recruitment and training 
processes are:
        <bullet> The recruitment materials are extremely misleading, 
        highlighting duties that very few agents are actually allowed 
        to perform. This quickly leads to disillusionment once new-
        hires are assigned to the field. It would be far better to 
        initially discourage applicants through an accurate portrayal 
        of work assignments instead of waiting for them to discover the 
        truth after large amounts of money have been wasted on 
        recruiting and training.
        <bullet> Agents who preside over oral hiring boards no longer 
        receive any information about the candidates they are 
        interviewing. This makes it extremely difficult to question 
        candidates about potentially troubling aspects of their past.
        <bullet> Background checks continue to be contracted-out even 
        after this process allowed an illegal alien to be hired as a 
        Border Patrol agent. That individual's immigration status was 
        not discovered until after he was arrested for smuggling 
        hundreds of other illegal aliens into the United States while 
        on duty. This is by no means an isolated case. Several gang 
        members have also been hired by the Border Patrol in recent 
        years, and they were also caught smuggling on duty.
        <bullet> In order to be able to train more recruits, the length 
        of the Border Patrol Academy has already been reduced from 
        nineteen to seventeen weeks. In October, an additional three 
        weeks will be removed from the curriculum. At the same time, a 
        new program will be instituted that eliminates another eight 
        weeks of instruction for trainees who demonstrate proficiency 
        in the Spanish language. These shortcuts will undoubtedly 
        create critical knowledge gaps for those who are trained in 
        these abbreviated classes.
        <bullet> Instead of being released, recruits who fail mandatory 
        subjects such as Spanish, law, firearms, physical training and 
        driver's training are being allowed to retake the courses under 
        Project Second Change, which is euphemistically called ``P2C.'' 
        the clear intent of this program is to meet the artificial 
        recruitment goals at all costs.
        <bullet> Although the training facility in Artesia, New Mexico 
        is being significantly expanded, it is still incapable of 
        handling the numbers of recruits envisioned by the 
        Administration and Congress. Its remote location makes it 
        difficult to attract volunteer instructors, many of whom must 
        live in Carlsbad or Rosewll, New Mexico, each of which are 
        about an 80-mile round-trip commute. As a result, some agents 
        have already been assigned there against their will for six 
        months or longer. This policy is incredibly foolish. 
        Impressionable new-hires should be trained by instructors who 
        are both highly-qualified and highly-motivated. Serious 
        consideration needs to be given to utilizing an alternate 
        location that is better suited for the purpose of training 
        large numbers of recruits, or concurrently utilizing another 
        facility in order to handle to increased number of trainees.
        <bullet> The border Patrol's field training program needs to be 
        revamped and standardized in order to ensure that recruits are 
        learning all of the requisite skills in a systematic manner 
        after they graduate from the academy. Moreover, instead of 
        flooding high-intensity areas with large numbers of 
        inexperienced agents, the Borer Patrol needs to ensure that 
        there is a balanced mixture of personnel so that experienced 
        agents can provide critical one-on-one instruction and 
        evaluation of the recruits.
    While some people believe that the foregoing problems suggest that 
private contractors could perform these functions more efficiently, the 
National Border Patrol Council does not share that view. The training 
of law enforcement officers is a function that should always be 
performed by those who have first-hand field experience in the 
organization, as well as a vested interest in the success of its 
mission.
    In summary, hiring and training thousands of additional Border 
Patrol agents during the next few years presents a number of 
formidable, but not insurmountable, challenges. Although many of them 
will require substantial expenditures to address, the security of our 
Nation demands that we make that investment. The goal here is not 
simply to hire more Border Patrol agents for the sake of doing so, but 
to hire them for the purpose of securing our borders. All decisions 
concerning the recruitment and training of Border Patrol agents must 
therefore be governed by that overarching goal and purpose. 
Shortchanging this process will ultimately diminish the security of our 
Nation, and cannot be tolerated.

    Mr. Carney. Thank you, Mr. Bonner, for your testimony.
    I now recognize Mr. Rosenkranz to summarize his statement 
for 5 minutes.

    STATEMENT OF ROBERT ROSENKRANZ, SENIOR VICE PRESIDENT, 
      GOVERNMENT SERVICES DIVISION, DYNCORP INTERNATIONAL

    Mr. Rosenkranz. Chairman Carney, Ranking Member Rogers, 
members of the subcommittee, I thank you for this invitation 
this morning to discuss the vital contribution that DynCorp can 
make to the U.S. Border Patrol mission.
    Border patrol is a daunting challenge in trying to secure 
our expansive borders with limited resources. Last year, the 
U.S. military supplemented the Border Patrol and provided 
valuable assistance. DynCorp International believes we can also 
mitigate the impact of understaffing by providing a substantial 
number of additional agents to work directly under the command 
of the Bureau of Customs and Border Protection and other 
agencies with the mission of securing the border.
    We have been providing technical services to the Federal 
Government for over 60 years. We have provided quality 
technical services to our government in every war since 
Vietnam. Our ethic has never changed. When we are needed, we 
are there in support of the government's missions no matter how 
difficult, no matter how dangerous, and no matter how remote.
    We currently have about 14,000 employees, $2 billion in 
annual sales, and our employees are in some 35 countries. We 
have broad and deep experience in our core competencies of law 
enforcement services, contingency support, logistics, base-ops, 
field construction, aircraft and ground equipment maintenance, 
maritime services, and program management.
    Our experience providing civilian police to the Department 
of State and the Department of Defense for peacekeeping and 
community policing operations in post-conflict societies and 
for foreign police training and development provide us with the 
model and the infrastructure that allows us to meet the 
staffing requirements of the Border Service.
    Our role would be to recruit, vet, train and support the 
Border Patrol agents that are needed to increase or temporarily 
augment the border protection force. We have the competencies, 
facilities and capacity to provide the quality and volume 
required at very rapid rates. Although DynCorp is sometimes 
labeled a private security contractor, we are not a traditional 
security company at all. Primarily, we are a contractor for the 
Department of State in support of the civilian police program.
    The primary objective of that program is to assist emerging 
and post-conflict nations with the critical task of creating, 
renewing, revising or reestablishing the rule of law 
infrastructure, including the establishment, reestablishment or 
strengthening of local police forces. We have recruited, 
screened, trained and deployed more than 6,000 American police 
officers to conduct security policing in the Balkans, East 
Timor, Haiti, Israel, Sudan, Afghanistan and Iraq.
    After 13 years supporting the Department of State's 
civilian police program, DynCorp has accumulated a great deal 
of institutional knowledge on the most effective and efficient 
way to recruit, screen, train, deploy and support our personnel 
serving on police and security missions. In Iraq, we currently 
deploy 754 police officers, and in Afghanistan, 622 U.S. 
advisors and mentors. We train, advise and mentor Iraq and 
Afghan police officers at all levels, and also provide full 
support to our in-country workforce, including logistics, life 
support, close protection, communications, transportation, 
security, procurement and construction.
    Active and retired U.S. law enforcement professionals form 
the pool of target candidates to support the Department of 
State's objectives. We have 48,000 names of current, former and 
potential candidates for international law enforcement service 
in our recruiting database. That includes 500 Spanish-speakers.
    DynCorp International's traditions, values and experience 
are the ideal alignment for the Border Patrol mission. Our 
global experience in support of nation building and rule of law 
training and mentoring are directly compatible with the mission 
of our U.S. Border Patrol.
    Our skills developed over the years in police training and 
logistics ensure successful execution. Our demonstrated 
contingency response capabilities in austere, remote and 
inhospitable environments should instill confidence that we can 
get tough missions done on time and in compliance with high 
standards of performance.
    Thank you Mr. Chairman. I stand ready for your questions.
    [The statement of Mr. Rosenkranz follows:]

               Prepared Statement of Robert B. Rosenkranz

    Chairman Carney, Ranking Member Rogers, and members of the 
subcommittee, I want to thank you for this invitation this morning to 
discuss the vital contribution that DynCorp International can make to 
the U.S. Border Patrol mission. The Border Patrol has a daunting 
challenge in trying to secure our expansive borders with limited 
resources. Last year, the U.S. military supplemented the Border Patrol 
and provided valuable assistance. DynCorp International believes we can 
also mitigate the impact of under-staffing by providing a substantial 
number of additional agents to work directly under the command of the 
Bureau of Customs and Border Protection and other agencies with the 
mission of securing the border.
    DynCorp International has been providing technical services to the 
Federal Government for more than 60 years, together with our namesake 
predecessor corporation, DynCorp. We have provided quality technical 
services to our government in every war since Vietnam. Our ethos has 
never changed: When we are needed, we are there, in support of the 
government's missions, no matter how difficult, no matter how 
dangerous, no matter how remote. We currently have approximately 14,000 
employees, more than $2 billion in annual sales, and employees deployed 
in some 35 countries. Some 4,000 personnel support our contracts in 
Iraq and Afghanistan and 142 have paid the ultimate sacrifice, 
including 23 Americans. We have broad and deep experience in our core 
competencies of law enforcement services, contingency support, 
logistics, base operations, field construction, aircraft and ground 
equipment maintenance, maritime services, and program management. We 
also support the government's counter-drug efforts in Latin America and 
South Asia and provide selected security services to customers in 
various locations around the world.
    Most people would agree that patrolling and securing the border is 
essentially a policing function, not a function for a private security 
company. It requires personnel who have been trained in the appropriate 
use of force in civilian policing situations, who are sensitive to the 
concerns of American citizens and governments located along the border, 
who can work with local law enforcement, and who respect other 
cultures.
    Our experience providing civilian police to the Departments of 
State and Defense for peacekeeping and community policing operations in 
post-conflict societies and for foreign police training and development 
provides both the model and the infrastructure that allow us to meet 
the staffing requirements of the Border Service. Our role would be to 
recruit, vet, train, and support the Border Patrol agents needed to 
increase or temporarily augment the border-protection force. We have 
the competencies, facilities and capacity to provide the quality and 
volume required at rapid rates.
    Although DynCorp International is sometimes labeled a ``private 
security contractor,'' we are not a traditional security company at 
all. Primarily, we are a contractor for the Department of State in 
support of its Civilian Police Program. The primary objective of that 
program is to assist emerging and post-conflict nations with the 
critical task of creating, renewing, revising, or re-establishing Rule 
of Law infrastructure, including the establishment, reestablishment, or 
strengthening of local police forces. Since 1994, DynCorp 
International's role has been to provide the mechanism through which 
these foreign policy objectives can be accomplished. In the process, we 
have recruited, screened, trained, and deployed more than 6,000 
American police officers to conduct security policing in the Balkans, 
East Timor, Haiti, Israel, Sudan, Afghanistan, and Iraq. Separately, we 
also provided timely support to the police force of St Bernard Parish, 
Louisiana, after Hurricane Katrina.
    Importantly, these officers have served under the direct 
operational command of appropriate legal authority, such as the United 
Nations, the Organization for Security and Cooperation in Europe, the 
United States Central Command, or the St. Bernard Parish Sheriff. In 
our opinion, this is the best way for private companies to support law 
enforcement--by helping to provide and sustain an augmented force, not 
by engaging as an institution in actual law enforcement or quasi-law 
enforcement operations.
    In St. Bernard Parish, all the personnel we provided were licensed 
law enforcement officers who were deputized by the St. Bernard Sheriff. 
This was an essential element of the service we provided to the parish, 
because it allowed for clean lines of authority, established clear 
rules for the use of weapons, and ensured that the assistance we were 
providing would complement and augment the work of the Sheriff's 
Department rather than interfere with it.
    After 13 years supporting the Department of State's Civilian Police 
Program, DynCorp International has accumulated a great deal of 
institutional knowledge on the most effective and efficient ways to 
recruit, screen, train, deploy, and support our personnel serving on 
police and security missions. In Iraq, we currently deploy 754 U.S. 
police officers (700 International Police Liaison Offers--IPLO's and 54 
Border Enforcement Advisors), and in Afghanistan 622 U.S. advisors and 
mentors. We train, advise, and mentor Iraqi and Afghan police officers 
at all levels and also provide full support to our in-country 
workforce, including logistics, life support, close protection, 
communications, transportation, security, procurement, and 
construction.
    Active and retired U.S. law enforcement professionals form the pool 
of target candidates to support the Department of State's objectives. 
We have 48,000 names of current, former, and potential candidates for 
international law enforcement service in our recruiting database, 
including 500 Spanish speakers. Experience in every law enforcement 
discipline and administrative or leadership level is represented in 
that group. For service in Iraq and Afghanistan, these officers sign 
one-year contracts, and are able to apply for a second or third year. 
Approximately 40 percent of the officers who go to Iraq and Afghanistan 
to train police sign on for a second year. To prepare our officers for 
their assignments, we use three training facilities--one in northern 
Virginia, one in southern Virginia, and one in central Texas, with a 
total capability to train as many as 450 personnel at one time.
    The support DynCorp International provides to police-reform and 
development efforts in Iraq and Afghanistan may be the most extensive 
and challenging mission in the history of the Department of State's 
Civilian Police Program. We advise, assist, monitor, and mentor 
indigenous police officers in the full gamut of law enforcement 
services, provide technical assistance, identify non-conforming 
practices, establish investigative services and facilities, construct 
or refurbish infrastructure facilities, and supply our government with 
the vehicle to assist the local government with anything it may need to 
be successful. We accomplish these tasks under very difficult and 
dangerous conditions, with local police institutions that are severely 
handicapped by inexperienced and poorly supported personnel who are 
frequently the target of terrorism. They struggle against a lack of 
tradition and education, and must eventually overcome distrust, lack of 
confidence, and an absence of community support because of the 
reputations established in the past.
    DynCorp International's experience in supporting these missions in 
austere foreign locations offers another important benefit to the 
protection of our national frontiers--the ability to sustain Border 
Patrol forces in remote locations along the border. In Iraq, 
Afghanistan, Sudan, Liberia, and Iraq, we have built and operated 
forward operating bases, military bases, training camps, and police 
facilities. Should these types of facilities be necessary to sustain 
forces in remote areas along the U.S. border, DynCorp International can 
build them, maintain them, and provide personnel to work from them.
    Before deploying overseas on a training mission, our police 
officers typically undergo three weeks of training and orientation. 
Since they already have the policing skills and have already passed 
background and psychological screening, the three weeks of training are 
spent preparing them for the specifics of their mission. The training 
of a Border Patrol agent currently takes 10 months. Depending on 
guidance from the Bureau of Customs and Border Protection, the 
curriculum could be modified to accommodate the previous training of an 
experienced police officer and concentrate on training in the skills, 
practices, and procedures specific to border security, thereby 
accelerating the training cycle without sacrificing training quality. 
Obviously, this would also ensure a faster augmentation of the Border 
Patrol and--perhaps most importantly--provide a level of professional 
experience that may not be available when recruiting from the general 
population.
    Half of the 10 months of current Border Patrol training is on-the-
job and in-service training, and might be waived or reduced if prior 
law enforcement experience is accepted. Similarly, some of the academy 
training might be redundant, or perhaps could be revised to gain 
greater efficiencies. Since our costs are proprietary information, I 
have not included a breakdown here. However, we estimate first-year 
costs per agent at approximately $197,000, including salary, benefits, 
and one-time costs for recruiting, screening and training (to including 
housing, travel, and per diem). Additionally, as contract personnel 
provided to the Border Patrol, these officers would provide a surge 
force that could easily be reduced if the need for personnel on the 
border were to diminish, and even if used for extended periods, would 
not generate a retirement benefit liability.
    The outline of a 10 week training course is described below. The 
cost of training depends on curriculum content and length.
    SUGGESTED BORDER PATROL SCHOOL CURRICULUM (taught by
    Current/Former Border Agents and DynCorp International 
Instructors):
Orientation and Mission
        Overview of Border Patrol-DynCorp partnership
        Expectations of Border Patrol
        Expectations of DynCorp International

    Border Patrol's Operational Directives and Policies
        Philosophy, History and Role of the Organization
        Admin Procedures
                Chain of Command
                Scheduling, Attendance, Timesheets, Vacation, etc
        Operational Procedures
                Border Security
                Intervention
                Detention and Arrest
1Mission, Knowledge and Skills Training
        Law
                Nationality Law
                Immigration Law
                Criminal Law
                Statutory Authority
                Federal Search and Seizure
        Ethics and professionalism
        Report Writing
        Courtroom Procedures/Testimony
        Basic First Aid/First Responder
        Spanish Language and Culture
        Physical Fitness
        Defensive Tactics, Mechanics of Arrest and Officer Safety
        Crowd Control Procedures
        Emergency Response/Augmentation Force
        Firearms Training, Qualification and Use of Force Policy
        Motor Vehicle Operations policy and Procedure
        Climate, Terrain; Working the SW USA Border Area

RECRUITING/SCREENING:
    Current costs include recruiting (advertising and recruiter 
contact) and screening (credit and criminal history, on line 
psychological testing, background testing and medical records review) a 
policeman prior to his deployment to training.
    Current costs for screening include travel, immunizations, medical/
psychological evaluation, individual equipment issue, and deployment 
training.

TRAINING COSTS PER STUDENT
    Based on standard daily rate while attending Border Police 
training. Content and length of the curriculum impacts the costs of 
faculty and facilities.

HOUSING AND PER DIEM:
    JTR Standard CONUS Rate for housing, meals and incidentals is 
approximately $100/Day.

YEARLY SALARY:
    Our average salary for Border Police agents is based on our 
Hurricane Katrina relief effort experience.

    RECRUITING, SCREENING, TRAINING, HOUSING AND PER DIEM, AND SALARY 
COSTS PER AGENT FOR THE FIRST YEAR: $197,000

ESTIMATED DEPLOYMENT TIMELINES:
        100 agents-3 months
        1000 agents-13 months (Approximately 75/month)
        Sustained rate--75 additional agents per month

LOGISTICS SUPPORT:
    DynCorp International can provide the following categories of 
support for all the agents we recruit, screen and train--
        Equipping (Including weapons and body armor)
        Transportation (Vehicles and Maintenance)
        Construction (Billets and support facilities)
        Communications (Radios, Info Tech)
        Base Operations (Operations and Maintenance)
        Aviation (Fixed and Rotary Wing)
        Back Office (Administration, Human Resources, Procurement, 
        Finance)

SUMMARY
    DynCorp International's traditions, values, and experience are in 
ideal alignment with the Border Patrol mission. Our global experience 
in support of nation building and rule-of-law training and mentoring 
are directly compatible with the mission of our U.S. Border Patrol. Our 
skills developed over the years in police training and logistics ensure 
successful execution. And our demonstrated contingency-response 
capabilities in austere, remote, and inhospitable environments should 
instill confidence that we can get tough missions done on time and in 
compliance with high standards of performance.

    Mr. Carney. I thank all the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for 5 minutes.
    Mr. Bonner, in your opinion, how do we strike a balance in 
the need to plus-up rapidly and to maintain the quality of both 
training and operations?
    Mr. Bonner. I think the outer edge is about somewhere in 
the neighborhood of 20 percent to 25 percent. That is the limit 
of how much you can increase a workforce in any given year. 
When you stretch it beyond that, you are just asking for 
trouble. So I don't know that there is a quick answer.
    This isn't like a military exercise where you take a bunch 
of 18-year-olds and give them a few weeks of boot camp and 
throw them into the fray. This is civilian law enforcement, and 
primarily immigration law enforcement, where you have to have 
people who are knowledgeable not just with the language skills, 
but cultural aspects and, most importantly, immigration law.
    The last thing you want is immigration officers just 
selecting people on the way they look and assuming that they 
are illegally in the country. It takes a lot of training in 
order to get people to that level.
    Mr. Carney. Any ideas on the balance, though?
    Mr. Bonner. I think that the goal of 2,000 a year was a 
reasonable goal. I think that 3,000, I think you are starting 
to push the edge of that envelope where you are in dangerous 
territory. You are on that slippery slope where you are just 
asking for more and more corruption.
    Mr. Carney. OK, thank you.
    Ms. Kelley, how would law enforcement status and 
whistleblower protections benefit the Customs and Border Patrol 
officers in the end and aid the department generally? Do you 
believe that such status and protections would assist in 
recruitment and retention, and more importantly, morale?
    Ms. Kelley. I do. I think it would do all of those things, 
Mr. Chairman. The whistleblower protections just across 
government are a necessity for employees to be able to help to 
identify things that are not working well, that are not in the 
government's interest, and to know that they can do that 
without fear of losing their job.
    On the law enforcement officer issue, these CBPOs are 
called law enforcement officers by everyone who speaks about 
them, but they do not have that official status, nor do they 
have it in their rights in their retirement. As a result, a lot 
of the attrition that we see among the CBPOs is moving into 
other occupations, whether it is within or outside the 
government, where they do have that law enforcement officer 
coverage and are recognized as such.
    They are trained to do all of the things required to be law 
enforcement officers. They must qualify three times a year on 
the range, and they are all armed, and they are armed in their 
jobs every day. And yet, they are denied that status. So I 
think it would make a world of difference in attrition, 
especially for the hires that have come in especially in the 
aftermath of September 11.
    But there are many thousands of employees, of officers 
doing this work, who have done it for 20 years, who have been 
waiting for the day for that recognition from Congress. And so 
the current work to make that happen is a plus, but for many it 
will be a little bit too late.
    Mr. Carney. Thank you.
    Mr. Rosenkranz, if I understand your testimony, you are 
offering to provide the equivalent of a trained Border Patrol 
agent for $197,000 the first year. Is that correct?
    Mr. Rosenkranz. Yes, sir. That is including the 1 year of 
salary.
    Mr. Carney. Right. According to press reports from just 
last month, your company was actually recruiting from Border 
Patrol to fill contract positions in Iraq. I have to say, this 
appears like we are using one government contract to create 
market for another government contract.
    Moreover, the Border Patrol tells us that for fiscal year 
2008, it is estimating the total cost of hiring, training, 
equipping and paying for an agent's first year is $159,000. 
That is just about $40,000 less than your estimate.
    Factoring all this in, I guess I don't understand what 
benefit necessarily the government derives from hiring one of 
your agents over someone else. Can you please explain?
    Mr. Rosenkranz. To your point about the cost, I think that 
number doesn't include a full-year's salary, so I am not sure 
about that, but I don't think so. On the other issue of 
recruiting advisors for the Iraqi border patrol, that was a 
mission for the State Department. We were told what we were 
allowed to do and what we were not allowed to do, and we tried 
to do it.
    Mr. Carney. So you are saying that in effect the government 
asked you to recruit, to rob Peter to pay Paul in a sense?
    Mr. Rosenkranz. There was no Paul in that one. There was 
just a request for a certain number of advisors for the border 
patrol in Iraq, and we went out and tried to get that.
    Mr. Carney. How many? Can you give me a rough estimate of 
how many Border Patrol agents went from our border to the Iraq?
    Mr. Rosenkranz. At the moment, I think 54 out of a total--
it has been suspended for the moment--but the total number 
required is 123.
    Mr. Carney. OK. Interesting. OK.
    I now recognize Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Kelley, you talked about 73 days training at FLETC is 
what you currently have for your CBPOs. Is that correct?
    Ms. Kelley. Yes, being trained in all three specialties: 
immigration, customs and agriculture.
    Mr. Rogers. And that is where? In Charleston?
    Ms. Kelley. No, that is at Glynco.
    Mr. Rogers. Glynco.
    Ms. Kelley. At Glynco, the Federal Law Enforcement Training 
Center.
    Mr. Rogers. Do you know what the costs are per officer to 
train these folks?
    Ms. Kelley. I do not know.
    Mr. Rogers. Do you know what the capacity of that facility 
is at any given point in time as far as trainees?
    Ms. Kelley. I do not know that, but I can tell you that in 
the aftermath of September 11, they had to put all of the 
trainees for CBP on a 6-day training schedule, Monday through 
Saturday, in order to accommodate all of the hires that the 
agencies were needing to send through the academy. So there 
definitely is a limit on it, but I don't know what it is.
    Mr. Rogers. How many CBPOs are in the field right now?
    Ms. Kelley. My best guess right now, because it is a moving 
target every day, with the turnover, but I would guess right 
now there are probably about 12,000.
    Mr. Rogers. And you say we need 1,000 more?
    Ms. Kelley. Well, there are over 1,000 authorized vacancies 
today that are vacant, because they are not able to maintain. 
There is this constant turnover, and we don't really know what 
the attrition rate is because CBP won't provide that to us. 
They tell us it is no different than the rest of government, 
but I know that is not true. Anecdotally in the ports, many of 
the ports are down 50 and 60 officers, which results in a lot 
of overtime and a lot of coverage that just can't be provided 
because they just don't have the officers.
    Mr. Rogers. So if we had those 1,000 vacancies filled, we 
would have a total of 13,000 in the field. Is that right?
    Ms. Kelley. Roughly, yes.
    Mr. Rogers. I am showing my ignorance here when I ask this 
question. Do you know, has the administration set a goal for 
CBPOs like he has for agents?
    Ms. Kelley. Actually, at this point it is very, very 
marginal. I believe the appropriations bill allows for 250 
additional hires, which really is just a drop in the bucket.
    Mr. Rogers. But you are not aware that he set a goal that 
we need 15,000 or 18,000?
    Ms. Kelley. I am not. What I can tell you is in 2000, the 
commissioner of CBP at the time did a resource allocation model 
and he determined that there was a need for a total of 21,000 
officers at the time, and that was before September 11. The 
department has not done an allocation since then and they owe 
you one now.
    Mr. Rogers. Right. I know that when I have been at the 
various ports of entry, I see a variety of canine detection 
teams being used by CBPOs. Where are they trained with those 
teams? Is that also at Glynco, or do they go somewhere else for 
that training?
    Ms. Kelley. Basic training is at Glynco, but to tell you 
the truth, there is very little of that training going on 
anymore.
    As I am sure you are aware, the canine officer position was 
abolished when CBP put forward its One Face at the Border 
initiative. They abolished that job title and series and made 
them all CBPOs, with a collateral duty of canine. So there are 
far fewer dogs and far fewer teams out there today, and even 
those officers who have--
    Mr. Rogers. If more people have that designation, that 
capacity, why are there fewer canine teams?
    Ms. Kelley. Well, because it is not a specialty anymore. 
They were put in the general population of CBPOs. They have 
made everyone a generalist, and now they are pulling these what 
used to be canine officers, they pull them away from time with 
their dogs to put them on passenger processing to meet the wait 
times that I talked about in my testimony.
    So they are not even being allowed to work full days with 
their dogs, which was their primary duty, and to keep those 
dogs ready and alert as detector dogs. It is a collateral duty 
now. It is no longer recognized as a position within CBP.
    Mr. Rogers. Do you have any idea how many canine detection 
teams there are as CBPOs?
    Ms. Kelley. I do not. I know there are many fewer today 
than there were when One Face at the Border was put in place in 
2003, but I do not have a number.
    Mr. Rogers. You also made the statement in your list of 
recommendations that we should end the One Face at the Border 
initiative. Could you expand on that, because you didn't say 
what you would suggest we do in the alternative?
    Ms. Kelley. I think there needs to be a recognition of the 
specialization that existed with immigration, with customs and 
with agriculture, and a recognition that this move toward a 
generalist is not a good move for the country or for the 
officers who are trying to do these jobs.
    There are very specific and distinct bodies of law, rule 
and regulation that go with customs, with immigration and with 
agriculture. And to try to make someone an expert at all three 
of them is not even what they are trying to do. They are making 
a generalist of everyone, with just a little bit of training in 
each of the specialties down at FLETC, when they go through.
    But they could be trained in passenger processing and then 
not work a booth for months, as you saw in my testimony, or 
they could be trained on customs documents and not do that work 
for months.
    Mr. Rogers. But isn't it useful to have that core knowledge 
in case, for cross-training purposes?
    Ms. Kelley. The core knowledge was always there, even 
before the One Face at the Border initiative, because these 
officers worked next to each other at the ports for all the 
travelers who were coming across the borders or through the 
ports.
    There was always that recognition and kind of that core 
knowledge. But the specialization that existed for customs law, 
rule and regulation, and for immigration, and for agriculture 
is not being held out as a standard anymore. It is to know a 
little bit about everything, rather than the recognition that 
the specialization is part of what makes our borders and our 
ports so safe.
    Mr. Rogers. Thank you. My time is up.
    Mr. Carney. I thank the gentleman from Alabama.
    We will do a second round, maybe more.
    Mr. Bonner, you state, in the rush to recruit, we are doing 
little to retain. In your opinion, what are the top three 
impediments to retention and how do we solve those problems?
    Mr. Bonner. First and foremost, policies that prevent 
agents from doing their job are the single largest impediment 
to retention. We go out and we recruit some fine young men and 
women. We show them videos with agents rappelling out of 
helicopters, riding on horseback, riding on ATVs. And then they 
get out to the line and they are told, look kid, here is your 
job; for 10 hours, you sit here and you watch this traffic. If 
someone comes across the border, if they are within range of 
your vehicle, without moving your vehicle, if you can go grab 
them, you can do that. If not, call them out to someone else.
    And they sit there for 10 hours a day essentially being 
human scarecrows, and they are bored stiff. That is not what 
they signed on for, and in very short order they move on to a 
different career in law enforcement. Unless that changes, we 
are going to chase away the best and the brightest.
    Obviously, the way you fix that problem is allow the Border 
Patrol to go back to patrolling the border. The single most 
important step, as counterintuitive as that might sound, is to 
go after the employers, which eliminates 98 percent of the 
traffic.
    Currently in any given year, 2 million or 3 million people 
come across our borders illegally, the overwhelming majority of 
whom are seeking employment in the United States. If we remove 
them from the equation, then we are left with tens of thousands 
of hardened criminals and a handful of terrorists.
    And the Border Patrol would clearly have to modify its 
tactics at that point. You don't just sit there and pretend 
that you can deter criminals from coming across, because you 
don't deter criminals except by putting them in jail. You have 
to hunt them down, apprehend them, bring them in front of a 
judge, and have them put away for a long time.
    That is doable, but only if you eliminate all of the 
millions of people who are coming across seeking employment, 
and guess what? They are finding it. U.S. employers are free to 
hire people who are in this country illegally, and everyone 
knows it.
    Mr. Carney. In your testimony, Mr. Bonner, you identify 
policies that you believe interfere with the Border Patrol's 
mission. Can you expand on that?
    Mr. Bonner. I mentioned the strategy of deterrence, which 
is sitting in a fixed position.
    Then there is the over-reliance on traffic checkpoints. We 
have stations along the southwest border where you have two or 
three agents working the line and dozens of agents working at 
the backup traffic checkpoints.
    You have the vehicle pursuit policy which does not allow 
agents to pursue vehicles that have broken any traffic laws, 
unless they have supervisory approval, and that is rarely 
given.
    All of these policies frustrate the ability of the agents 
to accomplish the mission.
    Mr. Carney. Are you suggesting we need another set of rules 
of engagement here?
    Mr. Bonner. Absolutely.
    Mr. Carney. Ms. Kelley, do you have an echo to that?
    Ms. Kelley. Well, the issue of the policies in the ports 
also impact how the officers at the ports of entry do their 
jobs. I mentioned these wait times. Very often, officers are 
pulled away from their other duties, whether it is inspecting 
cargo or baggage or other things that are very important to 
make sure the wrong things don't get into the country. But 
first and foremost, the priority is clearing a flight in 45 
minutes.
    Those kinds of rules and procedures are not seen by CBPers 
as the best use of their skills and/or of the best processes to 
really protect the ports that they are trying to protect.
    Mr. Carney. Thank you.
    Mr. Rosenkranz, to your point about the pay, yes, that is 
also part of the $159,000, too. It is in there as well.
    I yield to Mr. Rogers of Alabama for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Bonner, I wanted to ask you about the border. I know 
the agents are often in great danger. One of the things that I 
found when I was in Nogales is they drove along very 
mountainous terrain along the border. One of the concerns they 
had was rocks being thrown across from the Mexican side. Even 
smaller rocks when they get some velocity coming off those 
mountains can be very dangerous projectiles.
    Are you aware of any initiative that Border Patrol has 
taken to make those vehicles safe from those kinds of airborne 
projectiles?
    Mr. Bonner. We have what we call ``war wagons.'' It is a 
steel mesh, a heavy steel mesh that covers every inch of glass 
on that vehicle, all of the windows, the side windows, the 
front and back windows. That is the only measure that I am 
aware of that has been taken to protect the agents from those 
projectiles.
    Mr. Rogers. Are you aware of any initiative by Border 
Patrol to find alternative vehicles that have been used in 
other places like in Israel where they have a similar problem?
    Mr. Bonner. They have experimented with some of those on a 
limited basis. They are quite expensive, but I would say that a 
human life is worth a lot of money. So I think that no expense 
should be spared to protect these agents.
    But more importantly, when we know that there are areas 
where our agents are being ambushed, that are right next to the 
international boundary, wisdom and prudence dictates that we 
withdraw a little bit to an area where we control things, 
because we are relying on a neighbor to the south that is not 
very cooperative with us.
    Mr. Rogers. That is correct.
    Mr. Bonner. I would say that if those types of attacks were 
happening from our side of the border, being launched from our 
side of the border, that our law enforcement officers would be 
all over that. It would end in a hurry.
    Mr. Rogers. But it seems to me at a minimum in those very 
few areas where that is such a danger, we ought to have the 
proper vehicles there that can protect our agents.
    Mr. Bonner. We should. If we are going to put our agents in 
harm's way--
    Mr. Rogers. We don't have them everywhere, but at least in 
those areas it seems to me--
    Mr. Bonner. If we are going to put them in harm's way, we 
absolutely should protect them.
    Mr. Rogers. But another thing I have found is that just the 
terrain in general along the border is just tearing all these 
vehicles up. They are aren't built for it, and the 
manufacturers are not willing to make accommodations unless we 
buy a whole lot more. So it is a real practical problem.
    I want to talk to you a little bit about something you made 
reference to in your opening statement, and I was glad that you 
did touch on it, and that is how you came up with this 12 
percent attrition rate. I had the opportunity to catch your 
interview on the Glenn Beck program a while back, where you 
made reference to that.
    But the thing that was most startling in your interchange 
with Mr. Beck was you had talked about from the time we started 
this buildup of Border Patrol agents, to now--and this is about 
a month ago we have had a grand total or a net increase or 650 
agents.
    Is that a number you still feel is accurate?
    Mr. Bonner. That was the number from when the president 
announced, with great fanfare in May of last year, that he was 
going to increase the size of the Border Patrol. At that point 
in time, it is my understanding, and I haven't seen all of the 
official figures, but it was my understanding based on informal 
figures provided to me that that is pretty close to the truth.
    Mr. Rogers. And that is after 3 years?
    Mr. Bonner. No, that is in the span of about a year that 
they managed to add that many.
    Mr. Rogers. You are very familiar with the facility at 
Artesia, I take it?
    Mr. Bonner. Yes.
    Mr. Rogers. Do you believe it is possible that they can 
train 6,000 more Border Patrol agents in the next 18 months to 
meet the president's goal?
    Mr. Bonner. No, I do not. They can cut the corners. I 
suppose they can do anything. They could do a mail order 
training course, but that is not going to yield a good quality 
product.
    Mr. Rogers. Well, let's talk about the quality of the 
product. You made reference a little while ago to the fact that 
they were reducing the time by taking people who are Hispanic 
and can speak Spanish fluently, and removing that part of the 
course for them. That makes sense, it would seem to me, if 
somebody is fluent in Spanish that you are not making them sit 
through Spanish lessons for a month or 6 weeks.
    Mr. Bonner. I am less concerned with that aspect than I am 
with the other 5 weeks that are being taken off of courses that 
are essential to understanding the culture, essential to arrest 
techniques. These are some of the things that are being 
shortchanged as they reduce the length of the academy. There is 
simply no way around it. When you take 5 weeks out of a 19-week 
curriculum, something has to give.
    Mr. Rogers. Well, you know that we are having to tie up 
Border Patrol agents to train many of the courses there that 
are not law enforcement-related. You are aware of that?
    Mr. Bonner. I am aware in some instances.
    Mr. Rogers. In virtually all. One of my problems has been 
that we are classifying--and I tried to change it last year and 
got resistance from your union and others--we are classifying 
these faculty positions as inherently governmental, when in 
fact teaching Spanish is not something that you have to be a 
trained Border Patrol agent or Border Patrol officer to do.
    If we could free up those people to go out and work on the 
border, it would make it a lot easier for us to cover the 
border more securely, and at the same time train up officers 
and agents in an effective way. I am just talking about those 
that are non-law enforcement-oriented.
    I have gone over my time. I look forward to my third series 
so I can get to our friend at DynCorp. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Rogers.
    The chair now recognizes the gentleman from Colorado, Mr. 
Perlmutter, for 5 minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    I am going to start using the tunnels from here on out, now 
that I am in Washington in the summer, instead of running over 
to the Capitol. I am not appearing at my best, let's put it 
that way, when I get back here.
    I have a couple of questions, and they are very 
preliminary, and I apologize if you have already answered them.
    Can somebody quickly again just give me the distinction 
between a CBPO, an officer, and an agent? What is the 
difference, if there is a difference between a protective 
officer and a border agent?
    Ms. Kelley. The CBPOs work at the ports of entry, at the 
airports, the seaports and the land ports. Border Patrol agents 
work between the ports of entry.
    Mr. Perlmutter. OK. Next question is again another very 
preliminary one. Generally, how are all of our men and women in 
both of these organizations, and you can split them up as you 
like, how are they allocated between the north, the south, and 
then the ports?
    Ms. Kelley. The CBPOs are allocated based on decisions that 
are made by CBP headquarters. There are more officers on the 
northern border today than there were before September 11. The 
southern borders were always ports that were staffed at high 
numbers, but I will tell you they have some of the highest 
turnover, and probably some of the largest number of vacancies.
    And then the airports, seaports and other border crossings 
within the United States are staffed, again based on whatever 
CBP determines. They can have one or two officers there. They 
can have hundreds. They take the staffing that they have and 
they need more staffing, but they take the staffing that they 
have and allocate it as they see fit.
    Mr. Perlmutter. Does anybody know if it is three-to-one, 
four-to-one, south to north?
    Mr. Bonner. Within the Border Patrol, approximately 10 
percent of the workforce is along the northern border, with the 
balance on the southern border and a small number along the 
coastal waters down in Florida and the Gulf Coast.
    Mr. Perlmutter. OK. Recently, we had the incident--and I 
don't know if you talked about the patient with tuberculosis--
we had the incident up in New York. Do any of you have any 
particular positions on that?
    That seemed to be a fairly straightforward situation, and 
hopefully it was just a one-time event where somebody just had 
bad judgment. But is there something about the training that 
would lead to a mistake like that? Do any of you see that?
    Ms. Kelley. I can't really talk about specifics of the case 
because there is still an ongoing investigation within CBP.
    I am not stating that there was any direct correlation 
between that very, very unfortunate incident and the training. 
However, my comments about training in general are made in 
light of the fact that I know this committee is interested in 
ensuring that CBP staff have the training that they need.
    There are a lot of things that I believe are not being 
addressed, but I would not say that they were specifically tied 
to this incident based on what we know, even though it is still 
under investigation.
    Mr. Perlmutter. Well, one of the things you have been 
talking about, or the panel has been talking about, is just 
there is this need for many more border agents and protective 
officers. Training is getting squeezed to some degree.
    So I guess my question--there are a couple of questions. 
First is, does anybody have a position on whether or not we 
should be privatizing?
    Mr. Rosenkranz, this is probably where you come in--whether 
we should be privatizing or adding some private security forces 
to either the border or the ports, and we think that the 
training of the private individuals is better or the same as 
what we are getting within the system now.
    Ms. Kelley. I don't have any first-hand information other 
than what Mr. Rosenkranz has told us about training and the 
work that they do. I believe that the ports of entry should be 
protected by Federal employees who are trained by the Federal 
Government and who have that responsibility, that commitment. I 
believe without question it should be done by Federal employees 
and not privatized.
    Mr. Perlmutter. Mr. Bonner?
    Mr. Bonner. I agree with Ms. Kelley. I think it would be a 
serious mistake to set up a dual structure of Federal employees 
and private contractors. It is just an invitation to disaster.
    Mr. Perlmutter. Mr. Rosenkranz?
    Mr. Rosenkranz. I think there is a point that is missed 
here. The people that we recruit would be police officers, 
either retired or serving. They go through additional training 
and then they would come under the control of the Border 
Patrol. They would be additional employees in the same 
structure. The distinctions are not visible.
    Mr. Perlmutter. OK. Thank you.
    I yield back.
    Mr. Carney. I thank the gentleman.
    Mr. Bonner, do you think that hiring the private 
contractors is the answer to the problem?
    Mr. Bonner. No, I don't think so. I think that there is a 
temptation to throw a lot of personnel into the mix here as if 
somehow that is going to solve the problem. We have seen that 
that really hasn't worked. The ramp-up that started back in the 
early to mid-1990's, since that occurred, we have percentage-
wise increased the size of the Border Patrol substantially, 
probably to the same degree that they are talking about with 
this 18,000.
    As a consequence of that, the Border Patrol in its official 
estimates claims that they now control 150 miles of border. 
Taking that at face value, now they are saying that if we give 
then 18,000 total agents, and invest billions of dollars in 
SBInet, that within 6 years we will have complete control of 
all of our borders. And the Border Patrol is responsible for 
8,000 miles of land and coastal borders.
    Within the span of the last dozen years, we have managed to 
control 150 miles, by their estimates, and now all of a sudden 
we will have all 8,000 miles in 6 years? I don't believe that 
for a second, and anyone who does I have some beachfront 
property in Iowa that I am willing to sell at a bargain price.
    Mr. Carney. I am from Iowa, actually.
    [Laughter.]
    It is a beautiful state.
    Mr. Bonner. But you don't have any beaches there, and you 
know that better than most.
    [Laughter.]
    Mr. Carney. Yes.
    Mr. Rosenkranz, I have to confess, I need a quick tutorial 
here on how DynCorp does this. You offer a service of trained 
enforcement agents. Where do they get their training and then 
who paid for that training?
    Mr. Rosenkranz. The cost of the training is included in the 
number. I emphasize the fact that the number includes an entire 
year's salary, not 5 months. It is the entire year. The way it 
would work is the way it works now. The difference, I think, in 
the recruiting process is that it is easier to recruit retired 
police to go to Arizona than to go to Baghdad. I think we could 
be successful.
    The process would be the same as the government follows. We 
would determine the exact syllabus and the exact curriculum 
based on what the Border Patrol said had to be in it, but we 
have offered in our statement a potential syllabus, a potential 
curriculum that could be followed, and we pick 10 weeks as a 
fair number. It could be less or it could be more, depending on 
what is required.
    And then we recruit and vet and then train these folks, and 
then deploy them to the Border Patrol and they would work for 
the Border Patrol. They would be policemen. So we assume that 
there is less training required before they are put into the 
force.
    As I mentioned at the end of the statement, we can provide 
other support: back-office support, construction support, 
whatever is required to supplement what the Border Patrol has 
now.
    Mr. Carney. OK. So in your view, the value added to the 
extra cost, the cost differential about the $40,000 roughly is 
that other stuff you bring? What is different than what the 
government does in that?
    Mr. Rosenkranz. I think we can come up with whatever number 
is required from us. We can come up with that number in a short 
timeframe, train them, and provide them to the border police. I 
think that I will submit additional information so you can see 
the difference in the cost.
    I think our cost is less, actually. Because we didn't want 
to appear to be deceptive, we put everything in there, and we 
would be very happy to compare that to what it costs to do the 
same functions as the government.
    Mr. Carney. I would absolutely love to see that.
    Mr. Rosenkranz. OK.
    Mr. Carney. I appreciate it.
    Mr. Rosenkranz. I think there is an advantage here in that 
we can provide the amount of people that you need--not 6,000 a 
year, but we can provide, as we indicated in our report, 1,000 
a year, and more than that if you desire us to expand our 
facilities. We can do it at a price that is less than the 
government is spending now.
    Mr. Carney. OK. Well, like you said, I am looking forward 
to seeing those documents.
    I recognize Mr. Rogers for 5 minutes.
    Mr. Rogers. I thank the chairman.
    One of the things that we agree on, Mr. Bonner, is 18,000 
is not enough. I really believe it is going to be a larger 
number that is required. I have said that publicly for years. 
But I also don't believe that we have the capacity at Artesia, 
even with its enhancements, to meet the need of just getting to 
18,000 and sustaining that.
    Mr. Bonner. I agree.
    Mr. Rogers. I have gotten nothing but resistance to efforts 
to think outside the box to try to meet that demand in the 
interim. One of the things that, as you know, I have looked at 
is bringing the private sector in, companies like DynCorp, 
Blackwater and others, to serve in a supplemental capacity.
    Mr. Rosenkranz, I was a little surprised when I heard your 
number earlier in this testimony, because I have not heard a 
number that large. I have known it to be an expensive endeavor, 
but the reason I understood for it being a little bit expensive 
was because it was temporary. We could say that as soon as this 
contract is over, you go away. Whereas with these 
infrastructures, they are permanent and we have to sustain them 
and we just can't shut them down.
    But tell me more about this--well, rather than putting you 
on the spot, I would like to see the same thing you provide the 
chairman about your costs. I would like to ask you, I heard you 
make reference to the different areas where you have a presence 
or have had a presence. Are you still in New Orleans in the 
sheriff's department down there?
    Mr. Rosenkranz. No, we are not. We completed that mission.
    Mr. Rogers. How long were you there?
    Mr. Rosenkranz. About 1 1/2 years, I think.
    Mr. Rogers. So right after the hurricane for about 1 1/2 
years, you provided personnel. Was it 70 or 80 personnel 
working in the sheriff's department?
    Mr. Rosenkranz. I have to check on that number, sir. I 
don't remember. I think it was less than that.
    Mr. Rogers. Weren't those individuals deputized while they 
were there?
    Mr. Rosenkranz. The people who work for the department were 
deputized.
    Mr. Rogers. But your employees worked for the department?
    Mr. Rosenkranz. Right. Yes, sir.
    Mr. Rogers. So when you send your personnel to the border, 
you could have them deputized to serve in a law enforcement 
capacity?
    Mr. Rosenkranz. Yes, sir. Once we provide these people to 
the agency, in this case to the Border Patrol, they work for 
the Border Patrol and they take the responsibilities of any of 
the border patrolmen, the same capacities.
    Mr. Rogers. Yes.
    Mr. Rosenkranz. These are all required to be police 
officers already.
    Mr. Rogers. As you are probably aware--I don't think I have 
had this conversation with you--but I tried vigorously a year 
ago to push legislation that would allow us to contract out 
with entities through the Federal Protective Service, for 
services like you have been talking about where we could spec 
the requirements that we have for a Border Patrol agent or a 
Border Patrol officer, spec them very specifically, and then 
contract out for somebody to provide that.
    I ran into a complete buzz-saw from these two folks over 
here and others who want to keep the system just the way it is. 
It has been my view that we could take those kind of personnel 
who have been trained to the same academic criteria and law 
enforcement criteria and put them under the supervision, and be 
trained by Border Patrol agents, retired Border Patrol agents 
on the border, and they would function effectively.
    My question to you is--and I won't ask you if you agree 
with that because I am certain you would--but would you think 
that private source personnel, hired under the kind of program 
I just described, would be better suited to be given a distance 
along the southwest border that they control without any 
interaction with the Border Patrol? Or should they be 
integrated with the Border Patrol along the border in a 
subordinate capacity?
    Mr. Rosenkranz. Our assumption was that these are people 
that would be integrated into the current structure. Being 
given a separate segment of the responsibilities it not a 
problem except for the question of who is going to manage them. 
We can provide the management, but our initial thoughts on this 
based on the knowledge we have is that these would be people to 
be seamlessly integrated into the Border Patrol. That is the 
basis on which we provided our testimony.
    Mr. Rogers. OK.
    Mr. Rosenkranz. We think we can do that, and we would be 
very happy to have a test of that, or a pilot of that to show 
what we are talking about.
    Mr. Rogers. I would very much like to see that. I don't 
hold out a whole lot of hope, but I would like to see that 
happen. I think it would work. That is one of the reasons why I 
think it won't happen is because it would work.
    I want to make a comment before I let the mike go, because 
I won't ask for another round.
    I understand from past discussions that the way to answer 
the chairman's question when he had a view, is that the way you 
all do this is when you are being asked to provide personnel as 
officers or agents or whatever, you all would ask for the 
academic criteria and other training, and then you would set up 
a training campus somewhere and then you would hire and train-
up folks to meet that criteria at a separate location that you 
may or may not already have.
    Is that correct, Mr. Rosenkranz?
    Mr. Rosenkranz. Yes, currently the training facilities that 
we are using to train the civilian police for the State 
Department would be the facilities we would use for this 
mission, and we would expand them as necessary. This would be 
completely autonomous in that part of the training piece. It 
would not impinge on the Federal facilities at all.
    I would assume, as we do with the State Department, that 
the Border Patrol would provide people to either add to the 
faculty presentations or supervise the faculty, and certainly 
check their credentials. The State Department does that on a 
continuous basis.
    We have run these schools, but they do oversight and ensure 
that we are meeting the requirements and the specifications, 
and that is what we would expect in this case. We have two 
schools in Virginia and one in Texas.
    Mr. Carney. I thank the gentleman.
    I now recognize the gentleman from Colorado for another 5 
minutes.
    Mr. Perlmutter. Mr. Rosenkranz, does your company do any of 
the private contracting, private security forces in Iraq?
    Mr. Rosenkranz. At the moment, our work is with the State 
Department exclusively. We do a protection mission and a 
civilian police mission with the State Department.
    Mr. Perlmutter. Because as I was listening to Mr. Rogers, 
and at some point we have substantial numbers of private 
security contractors in Iraq. Has your company ever done that?
    Mr. Rosenkranz. They did some protection for commercial 
firms in Iraq in the 2003 or 2004 timeframe, before I joined 
the company.
    Mr. Perlmutter. Do you know whether, and I know you were 
answering this for Mr. Carney and Mr. Rogers, but have you or 
has your company analyzed what services you could provide for 
the Border Patrol? I mean, is there a specific proposal that 
you responded to or that you prepared?
    Mr. Rosenkranz. We prepared the testimony, but there is no 
proposal so there is nothing to prepare. I am sorry. There is 
no solicitation, so we prepared no proposal. Certainly, we 
could do that if somebody asked us.
    Mr. Perlmutter. In thinking about this, though, one of the 
issues that we are confronted with is the bad morale and the 
turnover that we have seen within our agents and our officers 
to some degree. To what do you attribute that, if you guys have 
taken a look at this?
    Mr. Rosenkranz. The morale of the Border Patrol?
    Mr. Perlmutter. Yes.
    Mr. Rosenkranz. I can't address that because I don't know.
    I can tell you that the morale on our force is a crucial 
element of our management of these policemen in Iraq and 
Afghanistan, as you can imagine. It is not just the post-
traumatics, but the stuff on the mission, because it is a very 
dicey, difficult mission.
    We have 40 percent of our people--and this is a 1-year 
assignment. We hire these people for 1 year. They go over to 
Iraq or Afghanistan and then they come home, and 40 percent 
elect to stay an additional year.
    I have been out to counsel them in their mission areas, and 
I am amazed at the level of morale and spirit that you see in 
these men and women who come from the police departments of the 
United States. It is very impressive.
    Mr. Perlmutter. How many people do you have, or does your 
company have working for you and working for the State 
Department?
    Mr. Rosenkranz. We have at the moment in Iraq and 
Afghanistan about 1,400-plus officers; in the field, about 
4,000 people between the two countries to support them.
    Mr. Perlmutter. Mr. Bonner, my question to you is also 
about the morale and turnover. I may have missed your testimony 
on this, and I apologize. But do you have anything that you 
attribute this?
    We have had a couple of hearings on morale within the 
Department of Homeland Security as a whole, but we have also 
heard particularly within Customs and Border Patrol that there 
is really been some disenchantment or whatever.
    Mr. Bonner. As a matter of fact, the Office of Personnel 
Management every 2 years for the last three cycles has done 
surveys. Since the creation of the Department of Homeland 
Security in the 2004 and 2006 reports, DHS has ranked dead 
last, and Border Patrol is down at the bottom of that 
dishonorable mention.
    The reasons are many, but the single largest complaint we 
get is that agents are simply not allowed to do their jobs. 
Beyond that, you have low pay and other issues that cause 
people to question their judgment in accepting employment with 
the Federal Government.
    Mr. Perlmutter. How are they not allowed to do their job? 
What do you mean?
    Mr. Bonner. There are various policies that prevent them 
from actually going out and utilizing their statutory arrest 
authority, such as being forced to sit in static positions; 
being deployed to areas where the traffic has moved away from; 
not being allowed to stop vehicles that break traffic laws. The 
whole list of policies prevent them from doing their jobs.
    Mr. Perlmutter. Ms. Kelley?
    Ms. Kelley. The One Face at the Border initiative that has 
really not allowed employees to use their experience, their 
expertise in the customs or immigration or agriculture arena is 
one of the biggest contributors to poor morale for the CBP 
officers and throughout CBP.
    In addition to issues around scheduling, a lack of 
recognition by CBP that while many of these ports have gone to 
24/7 coverage, which absolutely is understandable and is 
needed, but there is still a way to schedule employees with 
their work to recognize the fact that there are family issues, 
whether it is child care or working spouses.
    Every shift must be covered by qualified individuals, and 
that is management's right to do, but there was a time up to a 
few years ago where there was involvement by the employees in 
being able to at least raise their hand on different scheduling 
assignments in order to ensure that this was a place they could 
continue to work and not have to make a choice between family 
and the job.
    And that just isn't the case anymore. Schedules are put in 
place with zero consideration of employee input or 
volunteering. That has also contributed, as well as the lack of 
expertise and recognition of the skills that they have.
    Mr. Perlmutter. Thank you.
    Mr. Carney. I thank the gentleman.
    Seeing no further questions, I thank the panel for their 
valuable testimony and for the members for their questions.
    The members of the subcommittee may have additional 
questions for the panel. I encourage you to expeditiously 
answer them and submit them in writing.
    The first panel is dismissed. Thank you once again.
    I now welcome the second panel of witnesses.
    Our first witness is Richard Stana. Mr. Stana is the 
director with the Homeland Security and Justice team at the 
U.S. Government Accountability Office. During his 31-year 
career with GAO, he has directed reviews on a wide variety of 
complex military and domestic issues in headquarters, the field 
and overseas. Most recently, he has directed GAO's work 
relating to immigration and border security issues.
    Our second witness is Art Morgan, director of the U.S. 
Customs and Border Protection Field Operations Academy, a 
position he has held since January of 2006. In his current 
position, Mr. Morgan has oversight for basic training of all 
CBP officers, agriculture specialists, and other CBP 
professionals such as entry and import specialists. In 
addition, he is responsible for advance programs delivered at 
the CBP Field Operations Academy in Glynco, Georgia, and ports 
nationwide. Mr. Morgan has spent the past 35 years of public 
service, having begun his career as a customs inspector at 
O'Hare International Airport in Chicago, Illinois.
    Our third witness is Charlie Whitmire, chief patrol agent 
of the United States Border Patrol Academy in Artesia, New 
Mexico. As the chief of the Border Patrol academy, Chief 
Whitmire directs all efforts related to basic, advanced and 
post-academy training. He currently manages a combined staff 
and student population of over 1,100 agents plus support 
personnel. Chief Whitmire began as a Border Patrol agent in 
1983.
    Our fourth witness is Cynthia Atwood, assistant director 
for the Field Training Directorate at the Federal Law 
Enforcement Training Center, FLETC. In this position, Ms. 
Atwood is responsible for the direction, planning and 
management of FLETC's field training site. She began her FLETC 
career in 1995. Ms. Atwood began her career at an agent with 
the Department of Agriculture's Office of the Inspector 
General.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Stana.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Chairman Carney, Mr. Rogers and members of the 
subcommittee, I appreciate the opportunity to participate in 
today's hearing on the training of new Border Patrol agents.
    In May 2006, the president called for comprehensive 
immigration reform that included, among other things, adding 
6,000 new Border Patrol agents by December 2008. This would 
increase the number of agents to about 18,300, which is an 
unprecedented 48 percent increase in just 2 years.
    In addition, Congress is considering legislation that would 
authorize an additional 10,000 agents, which could increase the 
size of the Border Patrol to about 28,000 by 2012. It is 
important that these new agents receive the training needed to 
effectively carry out their national security and immigration 
enforcement responsibilities envisioned in various immigration 
reform proposals.
    My prepared statement is based on a report requested by Mr. 
Rogers and issued in March on the nature and cost of training 
provided to new Border Patrol agents, and whether the capacity 
exists to train the potentially large influx of new agents. In 
my oral statement, I would like to highlight the following 
three points.
    First, training for new Border Patrol agents includes both 
basic training at the Border Patrol Academy at Artesia, New 
Mexico, and post-academy and field training, which is provided 
after the new agent is assigned to the sector. Academy training 
is currently 81 days long and consists of Spanish language, law 
and operations, physical fitness, driving, firearms, and 
general operations training.
    While we did not independently evaluate the effectiveness 
of academy training, we found that the program exhibits all of 
the applicable attributes of an effective training program.
    As shown in table one of my prepared statement, for 
example, the Border Patrol's training program determines the 
skills and competencies needed by its workforce, incorporates 
measures of effectiveness into courses it designs, tracks the 
cost in delivery of training, and provides for an effectiveness 
evaluation by the Border Patrol. Border Patrol officials told 
us they are confident that the academy can handle the large 
influx of new trainees expected over the next 2 years.
    Second and perhaps most importantly, a potential capacity 
problem exists regarding the post-academy and field training 
components of the program. Border Patrol officials were 
concerned that they may not have enough experienced agents in 
the sectors to serve as first-line supervisors and trainers for 
the new agents. For example, the chief of the Border Patrol 
told us that while the average experience level of Border 
Patrol agents agency-wide is about 4 or 5 years, in some 
southwest border sectors it is only about 1 1/2 years.
    In addition, although the Border Patrol has a desired ratio 
of five new agents to every supervisor, the overall agent-to-
supervisor ratio for the southwest border sectors range from 
seven to one up to eleven to one. Moreover, this capacity 
shortfall would likely be exacerbated if some training is 
shifted from the academy to the sectors, and if the more 
experienced agents are transferred to the northern border or 
leave the agency.
    The transfers and the shifting are actions that are planned 
or under consideration. The additional burden this would place 
on already strained field resources could degrade the sectors' 
ability to provide adequate supervision and training for the 
new agents.
    My third point deals with the cost to train a new Border 
Patrol agent. We found that the average cost was consistent 
with the average cost of similar Federal and state law 
enforcement training programs. In 2006, the average cost to 
train a new Border Patrol agent was about $14,700, whereas it 
cost $15,300 to train a BIA police officer, about $15,500 for 
an Arizona police officer--that is a state police officer--and 
about $14,700 for a Texas state trooper.
    The Border Patrol estimates that the average cost to train 
a new agent this year is about $16,200. The increase is 
primarily due to hiring additional academy instructors, which 
increased CBP's instructor costs from about $2,800 to $6,100 
per student. CBP's position cost model estimates that it costs 
about $156,000--and this is a figure we talked about in the 
previous panel--to deploy an agent. This model includes direct 
and indirect costs to recruit, train, equip and deploy the 
agent.
    In closing, given the unprecedented ramp-up of new Border 
Patrol agents envisioned in the various immigration reform 
proposals, it will extremely important that the Border Patrol's 
training programs turn out new agents who are proficient in the 
safe, effective and ethical performance of their duties.
    Whether or not the Border Patrol Academy will be in a 
position to provide basic training to new agents, the numbers 
to be hired over the next 5 years would likely severely strain 
the sectors' ability to provide adequate supervision and field 
training. The planned transfer of more experienced agents to 
the northern border, a shift of training from the academy to 
the sectors, and the possibility of an exodus of experienced 
agents to other law enforcement agencies could further 
exacerbate these concerns.
    Finding ways to meet these challenges will be essential to 
maintaining a quality training program and an effective border 
patrol force.
    This concludes my oral statement, and I would be happy to 
answer any questions that you or other members of the 
subcommittee may have.
    [The statement of Mr. Stana follows:]

                 Prepared Statement of Richard M. Stana

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Carney. I thank you for your testimony.
    I now recognize Mr. Morgan to summarize his statement for 5 
minutes.

 STATEMENT OF ART MORGAN, DIRECTOR, FIELD OPERATIONS ACADEMY, 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Morgan. Good morning, Chairman Carney, Ranking Member 
Rogers, distinguished members of the subcommittee. I am pleased 
to be here to discuss how U.S. Customs and Border Protection is 
training our CBP officers who work at the 326 official ports of 
entry.
    My name is Art Morgan. I am the director of the Customs and 
Border Protection Field Operations Academy, which is located at 
the FLETC, the Federal Law Enforcement Training Center, in 
Glynco, Georgia. I have held this position and similar 
positions since July of 2000.
    Each day, CBP officers inspect more than 1.1 million 
arriving travelers and examine their documents, baggage, and 
conveyance. Last year alone, CBP welcomed over 422 million 
travelers through the official ports of entry. CBP officers are 
America's frontlines, the guardians of our nation's borders. 
They safeguard the American homeland at and beyond our borders, 
protecting the public against terrorists and their instruments 
of terror.
    These frontline employees steadfastly enforce the laws of 
the U.S., while fostering the nation's economic security 
through lawful international trade and travel. They serve the 
American public through vigilance, integrity and 
professionalism.
    As director of the Field Operations Academy, I oversee the 
delivery of basic and advanced training to CBP officers. The 
majority of our workload focuses on delivering training to CBP 
officers at the FLETC in Glynco, and to the CBP ag specialists, 
or agriculture specialists, which we do in cooperation with the 
United States Department of Agriculture at that agency's 
Frederick, Maryland, training facility, where we have added 3 
weeks of CBP training to the longstanding agriculture training 
that the USDA has provided these similar officers before the 
merger.
    The Field Operations Academy works hand in hand with FLETC 
to deliver our 73-day integrated program which we call ``CBPI'' 
to the CBP officers. The CBPI course is dynamic and 
comprehensive training that prepares CBP officers for their 
unique field assignments. The CBP course provides students with 
the foundation necessary to become Federal law enforcement 
officers with the most extensive arrest and search authority 
authorized by the Constitution and United States law.
    Each of our classes consists of about 48 students. We 
instruct CBP officers in passenger processing, trade 
processing, conveyance processing, officer safety and survival, 
and our automated information systems. Officers also receive 
training in the Constitution of the United States, customs law, 
immigration law, and agricultural laws and agency procedures.
    We also teach them firearms and physical techniques.
    I would like to clarify something from previous testimony. 
We did take two courses--one was the immigration course and one 
was the customs course--we put them together. When we put these 
two courses together, there were many overlapping parts that we 
of course we able to not duplicate, and we created the CBP 
officer course and we added extensive amounts, 16 hours, of 
agricultural training on top of that to create the current 
course that we provide for the CBP officers, as one part of the 
three-phase training we do for new CBP officers.
    They start with pre-academy training, which is 1 month at 
their port of entry, where they have a pre-designed course of 
training, which is delivered to them at their port of entry, 
then 73 class days with us in Glynco, where they learn primary 
processing, how to do the primary job of a customs and border 
protection officer. Then they go back for post-academy work, 
which they learn in their port of entry for the secondary tasks 
that they learn.
    We also provide 20 hours of direct training on the treasury 
enforcement communications to the CBP officers. Students are 
evaluated extensively throughout the course, with rigorous 
written examinations--we have eight of them--and mock port-of-
entry practical exercises which requires them to use the text 
computer system in a simulated field environment, where we use 
role players to have them actually have to show us and 
demonstrate to themselves and to their instructors that they 
have mastered what we have taught them.
    At the academy, we create CBPOs throughout the basic 
training by emphasizing the overall goal of detecting terrorism 
and protecting America. These words are prominently displayed 
in most of the training venues utilized by CBP.
    In order to effectively prepare CBPOs for their critical 
field assignments, we select some of the finest employees from 
the ports of entry and we bring them down to the academy for a 
3-to 5-year tour of duty as instructors. We can also augment 
these instructors with shorter term temporary assignments. In 
doing this, because we staff in this manner, we are able to 
change our through-put of students drastically as we have done 
every year for the past 5 years.
    I welcome answering any questions that you gentlemen would 
have.
    Mr. Carney. Thank you, Mr. Morgan.
    Mr. Whitmire, your testimony summary for 5 minutes, please.

 STATEMENT OF CHIEF CHARLIE WHITMIRE, DIRECTOR, BORDER PATROL 
      TRAINING ACADEMY, CUSTOMS AND BORDER PROTECTION, DHS

    Chief Whitmire. Good morning, Chairman Carney, Ranking 
Member Rogers, and distinguished members of the subcommittee 
this morning. I would like to thank you for giving me the 
opportunity to speak with you today about how U.S. Customs and 
Border Protection is training our Border Patrol agents, who 
work between the ports of entry.
    My name is Charles Whitmire. I am the chief of the United 
States Border Patrol Academy in Artesia, New Mexico. I believe 
we have met before, sir. I am responsible for providing basic 
training to new Border Patrol agents at the academy, and I 
provide advanced training to seasoned journeyman agents as 
well.
    We share some 7,000 miles of border with Canada and Mexico. 
Border Patrol agents are America's frontline, the guardians of 
our nation's border. They safeguard the American homeland at 
our borders, protecting the public against terrorist and 
instruments of terror. As America's frontline border agency, 
CBP employs a highly trained workforce, while utilizing our 
resources and law enforcement authorities to discharge our 
priority mission of preventing terrorist and terrorist weapons 
from entering the United States.
    In order to become a more efficient training program, the 
Border Patrol Academy's current 81-day training program will 
become a 55-day program at the beginning of fiscal year 2008. 
However, the standards, quality of instruction, and esprit de 
corps will remain the same. The only significant change to our 
Border Patrol basic training will take place in the Spanish and 
post-academy portions of the program.
    All current curriculum hours remain the same. I repeat: All 
current curriculum hours remain exactly the same. Not one hour 
is deleted from our current law enforcement curriculum. Only 
Spanish is removed from that curriculum and taught in a 
separate stand-alone.
    On October 1, 2007, all Border Patrol trainees will begin 
that 55-day core basic training program, and will be given a 
Spanish language exam when they arrive at the academy. Trainees 
who pass the Spanish language exam will report directly to 
their duty stations at the end of the 55-day program to begin 
post-academy training. Trainees who need Spanish immersion 
training will be placed in an 8-week task-based language 
training program that requires successful completion prior to 
reporting to their duty stations.
    The Border Patrol Academy anticipates that approximately 50 
percent of the trainees will need to complete the Spanish 
language immersion course at the end of the 55-day basic 
training program. The new post-academy training program will 
consist of classroom and computer-based training and task-based 
scenarios that incorporate the most current information 
available. The computer-based training modules will be 
interactive and will include multi-media formats in order to 
capture the trainee's interest, while conveying information in 
the most effective use of time.
    Instructor-led courses will also reinforce what was learned 
in the computer-based training modules through the use of 
modern adult education teaching methods. Several of the basic 
training subjects will be on-the-job training and will be 
coordinated with a field training officer program currently 
being developed by the Office of Border Patrol.
    Sir, anyone who opines that Border Patrol training has been 
degraded is simply uninformed. We are currently working with 
the Federal Law Enforcement Training Center to prepare the 
Artesia facility to accommodate basic Border Patrol training 
for 34 classes at one time for approximately 1,600 to 1,700 
trainees.
    Currently, there are more than 1,300 Border Patrol agent 
trainees at the academy to date. In fiscal year 2006, the 
academy had 38 classes for a total of 1,889 new Border Patrol 
agents. Approximately 1,407 have graduated. During fiscal year 
2007, we are expecting 78 classes for a total of 3,900 
students. To date, 2,463 trainees have arrived and 721 have 
graduated.
    In fiscal year 2008, we are expecting to train 97 classes 
for a total of 4,850 students. Therefore, the number of staff 
officers needed to accomplish such a monumental task will also 
increase. The academy staff currently consists of 450 
employees, including permanent and detailed agents on temporary 
assignment, rehired annuitants, and attorneys and support 
personnel who handle day-to-day operations.
    Thank you for having me here today. I stand ready to answer 
any questions you may have.
    [The statement of Mr. Morgan and Chief Whitmire follows:]

      Prepared Joint Statement of Art Morgan and Charles Whitmire

    Good morning Chairman Carney, Ranking Member Rogers, distinguished 
Members of the Subcommittee. I am pleased to be here today to discuss 
how U.S. Customs and Border Protection (CBP) trains our frontline 
employees, CBP Officers, who work at the official ports of entry, and 
Border Patrol Agents, who work between the ports of entry.
    Border Patrol Agents and CBP Officers are America's frontline, the 
guardians of our Nation's borders. They safeguard the American homeland 
at and beyond our borders, protecting the public against terrorists and 
the instruments of terror. These frontline employees steadfastly 
enforce the laws of the United States while fostering our Nation's 
economic security through lawful international trade and travel. They 
serve the American public with vigilance, integrity and 
professionalism.
    Securing our Nation's borders is an enormous challenge. We share 
more than 7,000 miles of borders with Canada and Mexico and operate 327 
official ports of entry. Each day, CBP Officers inspect more than 1.1 
million arriving travelers, and examine their documents, baggage, and 
conveyances. Last year alone, CBP welcomed over 422 million travelers 
through official ports of entry.
    As America's frontline border agency, CBP employs a highly trained 
workforce, while utilizing our resources and law enforcement 
authorities, to discharge our priority mission of preventing terrorists 
and terrorist weapons from entering the United States. CBP has made 
great strides toward securing America's borders while facilitating 
legitimate trade and travel and, thereby, ensuring the vitality of our 
economy and securing our Nation.
    Our efforts to gain operational control of our borders and push our 
zone of security outward enable CBP to better perform the traditional 
missions of its legacy agencies, which include: apprehending 
undocumented aliens attempting to enter the United States illegally, 
stemming the flow of illegal drugs and other contraband, protecting our 
agricultural and economic interests from harmful pests and diseases, 
protecting American businesses from the theft of their intellectual 
property, regulating and facilitating international trade, collecting 
import duties, and enforcing United States trade laws. In fiscal year 
2006 alone, CBP processed more than 29 million trade entries valued at 
$1.8 trillion, seized 2.5 million pounds of narcotics, processed more 
than 25 million containers, intercepted 47,951 significant plant pests, 
and inspected 132 million vehicles.
    It is our task to ensure new officers and agents are prepared to 
operate in the challenging legal, cultural and physical environments 
that exist along our borders, north and south, east and west. It is our 
job to establish and maintain the continuous communication and 
interactions between the training we deliver and the tasks in the 
operating environment and the new tools and new technology added to our 
inventory and the changes in law, policy and procedures and tactics and 
the new directions we get from DHS and CBP leadership.
    We build our basic training according to the best practices 
established in the academic community. We use a formal instructional 
system design and evaluation process that begins with a careful and 
continuous examination and assessment of the tasks that are performed 
in the field. We train to task. We test how well the trainee performs, 
and we test the effectiveness of our own training methods and our own 
instructors. We evaluate the overall effectiveness of our training: How 
effectively are new agents and officers performing their duties in the 
operating environment?
    We take our responsibility to train seriously, and our investment 
in training reflects that reality. At the heart of our basic training 
philosophy is the importance of bringing experienced Border Patrol 
Agents and CBP Officers into the training process to give context and 
to give credibility to the subjects we present and just as importantly 
to fuel the engine that makes the CBP Officers and Border Patrol Agents 
so effective in the many environments in which they work, and that 
engine is the esprit de corps. Our practice of bringing field agents 
and officers to the academy benefits the new trainees, and it is also a 
career development opportunity. While on assignment as an academy 
instructor, field agents and officers increase their knowledge and 
skills in the areas they teach, become better prepared to participate 
as sector and field instructors in the post-graduate portion of basic 
training and learn and receive practical experience in supervision and 
leadership.
    We are proud of the training program we have created to train men 
and women for important jobs as CBP Officers and Border Patrol Agents. 
A review conducted by the Government Accountability Office between 
September 2006 and March 2007 concluded that, ``the Border Patrol's 
basic training program exhibits attributes of an effective training 
program.'' \1\ Additionally, CBP works closely and effectively with the 
Federal Law Enforcement Training Center (FLETC). Our close working 
relationship ensures that our officers and agents receive the best and 
most up-to-date training available.
---------------------------------------------------------------------------
    \1\ GAO Report No. GAO-07-540R Border Training, pg.3, March 30, 
2007

Border Patrol Agent Training
    Border Patrol Agents are responsible for preventing the entry of 
terrorists, undocumented aliens, and human and drug smugglers and the 
smuggling of narcotics, weapons, and people between the official ports 
of entry. One of the most important duties performed by a Border Patrol 
Agent is known as ``line-watch''. This involves the detection and 
apprehension of undocumented aliens and their smugglers by maintaining 
surveillance from covert or overt positions, pursuing leads, responding 
to electronic sensor alarms, utilizing infrared scopes during night 
operations, using low-light level television systems, sighting 
aircraft, and interpreting and following tracks, marks, and other 
physical evidence. In addition, Border Patrol Agents perform traffic 
checks, traffic observation, city patrol transportation checks, and 
other administrative, intelligence, and anti-smuggling activities.
    To prepare new Border Patrol Agents for this dynamic and 
challenging position, they complete a rigorous 81-day training program 
consisting of 663 curriculum hours in the following subject areas: 
anti-terrorism, federal Immigration and anti-drug laws, criminal law 
and statutory authority, behavioral science, intensive Spanish language 
training, Border Patrol Operations, care and use of firearms, physical 
training and motor vehicle operations. Additionally, in Fiscal Year 
2008, the planning and anticipation is for two program lengths: 55 days 
for trainees with Spanish language proficiency and 95 days for those 
requiring language training. This plan will significantly reduce the 
amount of time to prepare bi-lingual trainees to be deployed to our 
borders. Working with FLETC, we were able to find ways to effectively 
and efficiently train new agents.
    The Academy's New Mexico location provides a unique environment 
similar to the Southwest border where all new Border Patrol Agents are 
assigned. Combining all of our tested methodologies and best practices 
under one roof allows us to more effectively and efficiently provide an 
advanced training environment that enables our agents to reach that 
state of readiness, that state of professionalism their fellow agents 
can depend on in the field, and, more importantly, the American people 
can depend on at home. Another important aspect of our basic training 
is our use of practical exercises throughout a trainee's 81 days at the 
Academy. These exercises require trainees to practice observational 
skills and interviewing techniques, while applying their job knowledge 
of documentation requirements, immigration issues, checkpoint 
operations, and vehicle stops.
    After graduating from the basic academy, probationary agents are 
required to complete a post-academy course of study one day a week. 
This weekly classroom instruction, within their respective Sectors, 
continues for 20 weeks. The Post Academy Training Program is committed 
to the continued basic training development of probationary agents for 
the Office of Border Patrol. The program is managed and coordinated by 
the Post Academy Coordinator. Post Academy schedules are developed and 
are used as a weekly guide for instructional topics and assignments. 
The Post Academy examinations are administered at two intervals after 
basic training graduation, during the 28th and 40th week of the 
trainee's service. The exams consist of two parts, both of which are 
taken at each of the two intervals:
        <bullet> Law--A comprehensive written exam in immigration, 
        criminal, statutory, and nationality law.
        <bullet> Spanish--A comprehensive combination oral and written 
        Spanish exam, administrated by a Post Academy Examination 
        Review Board.

CBP Officer Training
    The CBP Officer's primary responsibility is to detect and prevent 
terrorists and weapons of mass destruction from entering the United 
States, while facilitating the orderly flow of legitimate trade and 
travelers at the 327 official ports of entry in the United States. This 
requires enforcing laws related to revenue and trade, seizure of 
contraband, interdiction of agricultural pests and diseases, and 
determining the admissibility of persons. CBP Officers perform the full 
range of inspection, analysis, examination and law enforcement 
activities relating to the arrival and departure of persons, 
merchandise and conveyances such as cars, trucks, aircraft, and ships 
at the ports of entry.
    To prepare to execute these duties, new CBP Officers attend 73 days 
of training, 578 hours of lecture, laboratories, and practical 
exercises, at the Field Operations Academy, within the Federal Law 
Enforcement Training Center in Glynco, Georgia. Before entering the CBP 
Academy, CBP officers receive structured pre-academy training at their 
assigned Ports of Entry prior to completing the CBP Officer basic 
training course at the Field Operations Academy in Glynco, Georgia.
    The course is a dynamic and comprehensive training program that 
prepares CBP Officers for unique field assignments and provides 
thorough development in critical subject-matter areas. The course 
provides students with the foundation necessary to become Federal law 
enforcement officers with the most extensive arrest and search 
authority authorized by the Constitution and United States law. The CBP 
Officer basic course provides training on firearms/tactics, counter 
terrorism, arrest techniques and defensive tactics, passenger 
processing, trade processing, officer safety and survival, automated 
information systems, and conveyance processing. Additionally, during 
training, CBP Officers receive training from the CDC/U.S. Public Health 
Service on medical/biological threats, Annually, CBP Officers continue 
their education with classroom, on-the-job, and computerized training 
to update their skills and inform them of new procedures and possible 
threats.
    Students are evaluated extensively through rigorous written 
examinations and mock Port of Entry practical exercises that simulate 
the field environment to the greatest extent possible. These exercises 
allow new officers to demonstrate their ability to successfully perform 
their duties and take the appropriate steps in meeting the unique 
challenges of their duty assignments.
    Upon successful completion of basic academy training, new officers 
receive Post Academy On-the-Job training that is specifically related 
to their designated job functions. This structured program includes 
classroom, hands-on, and computer- based training. It was developed to 
provide seamless progressive instruction that covers various work 
environments and programs that extend beyond their initial primary 
inspection training.

Training Costs
    The cost for training a new Border Patrol Agent in Fiscal Year 2007 
is $16,220. Specifically, the tuition and miscellaneous cost is $4,807, 
the lodging and meals cost is $2,256 and instructors and support staff 
cost is $9,157. (Tuition includes items consumed by students, such as 
printing, pencils, paper, ammunition, and uniforms; miscellaneous costs 
are contract costs for bus transportation, dining hall, custodial 
services, and other student services.) The cost for training a new CBP 
Officer is $10,752. CBP has worked extensively to constrain these 
costs, while ensuring top-of-the-line training for our agents and 
officers.
    The Office of Border Patrol is in the midst of an unprecedented 
surge in the number of Border Patrol Agents. The President and Congress 
have directed CBP to increase in size from almost 9,000 agents in 2001 
to over 18,000 agents by the end of calendar year 2008; doubling the 
size of the Border Patrol. Border Patrol is also the beneficiary of 
support from Congress in terms of funding, resources, and attention. 
Growing so rapidly is not an easy task, but it is one Border Patrol is 
accomplishing. In Fiscal Year 2006, the Border Patrol Training Academy 
trained 1,407 new Border Patrol Agents. Through new recruiting methods, 
more effective training, and competitive pay and benefits packages, 
Border Patrol is on pace to meet its goals.

Conclusion
    We appreciate the opportunity to testify before the Committee today 
to publicize the advanced and highly effective training we provide to 
our officers and agents on the frontlines. We are proud of the training 
we provide.
    We would be happy to answer any questions that you may have.

    Mr. Carney. Thank you, Mr. Whitmire.
    I now recognize Ms. Atwood for 5 minutes to summarize her 
testimony.

STATEMENT OF CYNTHIA ATWOOD, ASSISTANT DIRECTOR, FIELD TRAINING 
   DIRECTORATE, FEDERAL LAW ENFORCEMENT TRAINING CENTER, DHS

    Ms. Atwood. Mr. Chairman, Ranking Member Rogers, and 
distinguished members of the committee, it is a pleasure to 
appear before this committee today and discuss the status of 
the Border Patrol training being conducted at the Federal Law 
Enforcement Training Center, FLETC, Artesia, New Mexico, site.
    This training is being accomplished in support of the 
Secure Border initiative. With me today are the site director 
for the Artesia, New Mexico site, Joseph Wright, and our senior 
associate director in our Washington office, Mr. John Dooher.
    FLETC's mission is to train those who protect our homeland. 
FLETC is the Federal Government's leader for and provider of 
world-class law enforcement training. FLETC prepares new and 
experienced law enforcement professionals to fulfill their 
responsibilities in a safe manner and at the highest level of 
proficiency.
    Training consists of all phases of law enforcement 
instruction, to include firearms, driver training, defensive 
tactics, and legal instruction. Through consolidated training, 
FLETC can respond quickly to emerging training needs, readily 
adapt to new requirements, and focus exclusively on training, 
which is FLETC's only mission.
    FLETC delivers interagency training with optimal efficiency 
through the government-wide sharing of facilities, equipment 
and expertise, which produces economies of scale available only 
from a consolidated law enforcement training environment. There 
are currently 83 Federal partner organizations engaged in law 
enforcement training at FLETC sites.
    FLETC currently operates four training sites throughout the 
United States for multiple agency use. FLETC headquarters and 
its largest training site, Glynco, Georgia, has classrooms, 
dining and residence halls, and state-of-the-art facilities for 
firearms, physical techniques, driver, marine and computer-
based training.
    Two field locations that provide both basic and advanced 
training are located, again, at Artesia, New Mexico and 
Charleston, South Carolina, sites. The fourth training site, 
Cheltenham, Maryland, provides in-service and requalification 
training for officers and agents here in the metropolitan 
Washington, D.C., area.
    In collaboration with the Department of State, FLETC 
operates international law enforcement academies in Gaborone, 
Botswana and San Salvador, El Salvador. FLETC also maintains a 
very robust state and local law enforcement training program.
    As assistant director for field training, I am the senior 
FLETC official with management oversight on behalf of the 
director of the FLETC for the field sites in Artesia, New 
Mexico, Charleston, South Carolina, Cheltenham, Maryland, and 
also for our National Center for State and Local Training.
    As this committee is aware from the testimony of FLETC 
Director Connie L. Patrick when she appeared before the 
committee on May 24, 2005, the Artesia, New Mexico, center is 
the principal site for Border Patrol training. This site 
consists of more than 3,000 acres. FLETC Artesia has been 
operational since 1989 and serves to accommodate Border Patrol 
training, Bureau of Indian Affairs police and tribal officer 
training, Federal flight deck officer training, Federal air 
marshal training, and other law enforcement training as 
required.
    In 2003, Border Patrol training conducted at other FLETC 
sites was consolidated at FLETC Artesia. As necessary, FLETC 
continues to utilize its other locations to host Border Patrol 
training. Today, the Artesia site has the latest state-of-the-
art facilities and offers the type of specialized training 
environment most suited to Border Patrol functions. The 
practical, hands-on training capabilities at a single location 
affords the Border Patrol training that is second to none.
    This year, FLETC will complete a new dormitory that will 
accommodate 608 trainees and allow for the total housing of 
over 2,000 trainees at any one time. FLETC also has built in 
flexibility at the Artesia site to further expand its housing 
as necessary. Much of what has been accomplished in Artesia 
would not have been possible without the generous support of 
Congress through the annual appropriation process.
    With congressional funding support and strong cooperation 
and leadership of the Department of Homeland Security and 
Customs and Border Protection, FLETC believes it is in the very 
best position to accomplish the goals set for Border Patrol 
training in the Secure Border initiative within the timeframe 
established.
    I would be pleased to answer any questions the committee 
may have at this time.
    [The statement of Ms. Atwood follows:]

                Prepared Statement of Cynthia J. Atwood

    Mr. Chairman, Ranking Member Rogers, and distinguished members of 
the Subcommittee, it is a pleasure to appear before this Committee 
today to discuss the status of the Border Patrol training being 
conducted at the Federal Law Enforcement Training Center's (FLETC) 
Artesia, New Mexico site. This training is being accomplished in 
support of the Secure Border Initiative.

                              INTRODUCTION

    FLETC'S mission is to train those who protect our homeland. FLETC 
is the Federal Government's leader for and provider of world-class law 
enforcement training. FLETC prepares new and experienced law 
enforcement professionals to fulfill their responsibilities in a safe 
manner and at the highest level of proficiency. Training consists of 
all phases of law enforcement instruction, to include firearms, drivers 
training, defensive tactics, and legal instruction.
    Through consolidated training, FLETC can respond quickly to 
emerging training needs, readily adapt to new requirements and focus 
exclusively on training, which is FLETC's only mission. FLETC delivers 
interagency training with optimal efficiency through the government-
wide sharing of facilities, equipment, and expertise, which produces 
economies of scale available only from a consolidated law enforcement 
training environment. There are currently 83 Federal partner 
organizations engaged in law enforcement training at FLETC sites.
    FLETC currently operates four training sites throughout the United 
States for multiple agency use. FLETC headquarters and its largest 
training site, Glynco, Georgia, has classrooms, dining and residence 
halls, and state-of-the-art facilities for firearms, physical 
techniques, driver, marine, and computer-based training. Two field 
locations that provide both basic and advanced training are located in 
Artesia, New Mexico, and Charleston, South Carolina. The fourth 
training site, Cheltenham, Maryland, provides in-service and re-
qualification training for officers and agents in the Metropolitan 
Washington, DC area. In collaboration with the Department of State, 
FLETC operates International Law Enforcement Academies in Gaborone, 
Botswana, and San Salvador, El Salvador. FLETC also maintains a very 
robust state and local training program.
    As Assistant Director for Field Training, I am the senior FLETC 
official with management oversight on behalf of the Director of the 
FLETC for the field sites in Artesia, Charleston, and Cheltenham, and 
for the National Center for State and Local Training.

                      ARTESIA, NEW MEXICO, CENTER

    As this Committee is aware, from the testimony of FLETC's Director, 
Connie L. Patrick, when she appeared before the Committee on May 24, 
2005, the Artesia, New Mexico Center is the principal site for Border 
Patrol training. This site consists of more than 3,000 acres. FLETC 
Artesia has been operational since 1989 and serves to accommodate 
Border Patrol training, Bureau of Indian Affairs Police and Tribal 
Officer training, Federal Flight Deck Officer training, Federal Air 
Marshal training, and other law enforcement training as required. In 
2003, Border Patrol training conducted at other FLETC sites was 
consolidated at FLETC Artesia. As necessary, FLETC continues to utilize 
its other locations to host Border Patrol training. Today, the Artesia 
site has the latest state-of-the-art facilities and offers the type of 
specialized training environment most suited to Border Patrol 
functions. The practical, hands-on training capabilities at a single 
location affords the Border Patrol training that is second to none. 
This year, FLETC will complete a new dormitory that will accommodate 
608 trainees and allow for the total housing of over 2,000 trainees at 
any one time. FLETC also has ``built-in flexibility'' at the Artesia 
site to further expand its existing housing as needed.
    Much of what has been accomplished in Artesia would not have been 
possible without the generous support of Congress through the annual 
appropriation process. With Congressional funding support, and the 
strong cooperation and leadership of the Department of Homeland 
Security and Customs and Border Protection, FLETC believes it is in the 
very best position to accomplish the goals set for Border Patrol 
training in the secure border initiative and within the timeframe 
established.

                    BORDER PATROL TRAINING WORKLOAD

    The aggressive growth plan for new Border Patrol agents is 
necessary in order to reach the President's goal to significally 
increase the number of agents. We have approached the training program 
and scheduling with urgency and the need to accelerate training. The 
plan has been to train as quickly as possible to the level of putting 
the new Border Patrol agents needed on our borders in an orderly and 
sensible manner. For Fiscal Year 2007, FLETC and CBP project 3,900 
agents will commence training. I am pleased to note that we are on 
schedule and will reach a 34-class overlap next month. While this is a 
significant milestone, we have in place all the necessary resources to 
meet the training challenge. In Fiscal Year 2008, with the President's 
funding request, we will conduct training for 4,350 new trainees. By 
the end of the first quarter of Fiscal Year 2009, the remaining 
workload of 850 to meet the 6,000 net total (with attrition) of new 
trainees provided for in recent appropriations will be completed. By 
the end of the calendar year of 2008, the projected number of Border 
Patrol will be at 18,000.

                     BORDER PATROL TRAINING PROGRAM

    In Fiscal Year 2007, the Border Patrol and FLETC instituted an 81-
day training program following a full review of the training 
curriculum. In Fiscal Year 2008, the planning and anticipation is for 
two program lengths: 55 days for trainees with Spanish language 
proficiency and 95 days for those requiring language training. This 
plan will significantly reduce the amount of time to prepare bi-lingual 
trainees to be deployed to our borders. Let me assure the Committee 
that we are working very closely with CBP and the Border Patrol Academy 
to maximize the training experiences and maintain the quality of the 
training. At the same time, we are pleased that the costs associated 
with this training continue to be very economical. In Fiscal Year 2007, 
the total cost for training at Artesia, to include tuition, room and 
board, miscellaneous, and instructors is currently $16,220 per student 
for 81 days of training. Specifically, the tuition and miscellaneous 
cost is $4,807, the lodging and meals cost is $2,256 and instructors 
and support staff cost is $9,157. (Tuition includes items consumed by 
students, such as printing, pencils, paper, ammunition, and uniforms; 
miscellaneous costs are contract costs for bus transportation, dining 
hall, custodial services, and other student services.) We continuously 
revise our numbers based upon training volume and other changes as they 
occur throughout the training year and we expect this total cost 
actually will be lower by the end of fiscal 2007. We will be pleased to 
provide this committee with the final cost numbers at the end of fiscal 
year 2007.

                                CAPACITY

    Questions have been asked regarding FLETC's capacity to meet Border 
Patrol training requirements. From the beginning, FLETC has pledged 
that it will bring to bear every resource it has to successfully 
implement this important initiative.
    In addition to housing, significant upgrades in other facilities 
have been completed at our Artesia, NM training site. These include 
language laboratories, expansions to the physical training facilities, 
an enclosed aquatic training site, two new emergency response ranges, 
an off-road four-wheel drive course, and a Border Patrol Check Point 
practical exercise area. Also, a skeet (shotgun training) range and 
renovation of an existing firearms range to accommodate 100 yd rifle 
training is underway.
    Should it prove necessary to consider alternatives to the present 
training plan, FLETC is prepared to utilize other FLETC or DHS sites to 
assist in meeting the training demand. Finally, Mr. Chairman and 
Members of the Committee, allow me to underscore the points that FLETC 
does understand the significance of conducting this training 
effectively and expeditiously and we will not loose sight of the very 
important mission entrusted to us.

                                CLOSING

    Thank you, Mr. Chairman, for the opportunity to testify today. This 
completes my statement and I would be pleased to address any questions 
the Committee may have.

    Mr. Carney. Thank you.
    I thank the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Ms. Atwood, what percentage of FLETC services are performed 
by Federal Government employees, and what percentage by 
contractors? And do you have an opinion as to whether portions 
of the training curricula can or should be handled by private 
contractors?
    Ms. Atwood. Thank you for that question, Mr. Chairman. I do 
believe that there is some misunderstanding about FLETC and the 
fact that we currently contract out 59 percent of all of the 
work that we do.
    Mr. Carney. I am sorry. That number again?
    Ms. Atwood. It is 59 percent that is currently contracted 
out.
    Mr. Carney. Thank you.
    Ms. Atwood. A large portion of what we do is in conjunction 
with government contractors. We have, however, maintained that 
the core mission, the basic law enforcement training, since our 
initial FAIR Act inventory back when we were with the 
Department of Treasury, and continuing on today under the 
Department of Homeland Security, is properly classified as 
inherently governmental.
    I think it is also important to note, though if I may, sir, 
that we also do contract out extensively in areas for advanced 
training, and those areas where we couldn't possibly maintain 
efficiently a staff that would have specialized experience in, 
say, the banking institutions or something that is extremely 
specialized that we contract out for in our advanced training 
environment. We utilize guest lecturers in that category. But 
the basic, fundamental core skills for Federal law enforcement 
officers and agents we do maintain is inherently governmental.
    Mr. Carney. Thank you.
    Mr. Stana, in your opinion, is CBP taking adequate steps to 
ensure that the quality of training is maintained as the hiring 
increases?
    Mr. Stana. I am not as concerned with the academy training. 
They seem to have the kinds of programs that would adequately 
train people, and they have the controls in place to monitor 
that circumstance. I would expect that over time, although 
their resources may be strained, it appears as though they will 
be able to handle an influx.
    What really worries me is when the academy training is over 
and the agent is deployed to the sectors, who is going to be 
there to mentor the individual? Not only from the standpoint of 
teaching someone the ropes--how to apprehend someone, how to 
conduct the job and perform well--but what we have seen in past 
ramp-ups like this, after IRCA after IRA, when the number of 
agents went up quickly, is we get a few bad apples into the 
Border Patrol core. If we don't have the proper supervision to 
identify these bad apples and get them out of that barrel as 
soon as we can, we could get ourselves in trouble.
    I would note also that there are some intelligence reports 
that drug cartels are trying to find people with clean records 
and get them into the Border Patrol. If we don't have the right 
supervision to watch these people, we could be in a lot of 
trouble down the road.
    Mr. Carney. So you would patrol the patrollers?
    Mr. Stana. Well, you spent a lot of time earlier talking 
about what happened in the TB traveler case, and whether it was 
training or whether it was just incompetence or whether it was 
somebody trying to give somebody a break. It really boils down 
to internal controls and supervision. Are these people made 
well-aware of what their responsibilities are--and that is what 
happens in the sectors--and are they supervised to make sure 
they do it well?
    Mr. Carney. Thank you very much.
    Mr. Whitmire, GAO found that the training program for the 
Border Patrol is effective--very good news. We understand you 
will introduce a series of changes to the training course for 
Border Patrol agents with a focus on more field training. Do 
you have enough supervisory agents on hand to support that 
change in the training?
    Chief Whitmire. Are you referring to in the field or at the 
academy, sir?
    Mr. Carney. In the field.
    Chief Whitmire. I would have to defer that question, since 
training is the only piece of the Border Patrol equation that I 
control. HRM and Chief Aguilar is the individual that would 
have to speak to the issue of whether or not there is 
sufficient supervisors in the field to mentor the agents, sir.
    Mr. Carney. OK. Do we have enough officers at the classroom 
level?
    Chief Whitmire. At this point, I have enough agents to 
provide all the training. Correct, sir. I have 350 detailed 
Border Patrol agents, about 100 CDIs, of course development 
instructors on hand, and about 48 rehired annuitants that are 
working very effectively for us to provide instruction.
    Mr. Carney. Good. And they in your opinion will be able to 
handle a surge that hopefully will occur?
    Chief Whitmire. That will go up somewhat. Our peak overload 
will come into effect about a month from now when we will have 
a total of a 34-class overlap, 1,600 to 1,700 trainees. At that 
point, I will have about 500 to 600 instructors providing 
instruction for those agents, sir.
    Mr. Carney. Very good.
    My time is up for this round of questions. I now recognize 
the gentleman from Alabama, Mr. Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Atwood, you indicated that you use 59 percent of your 
personnel as contract personnel.
    Ms. Atwood. That is correct, sir, 59 percent of our FLETC 
workforce is contracted out.
    Mr. Rogers. But not at Artesia.
    Ms. Atwood. That is the overall number, sir.
    Mr. Rogers. What would the percentage be at Artesia?
    Ms. Atwood. I don't have that number, but I will certainly 
get that for you, if that would be acceptable.
    Mr. Rogers. It would, but could you say that it is 
significantly below 60 percent, in your estimation, knowing 
that you don't know the accurate number yet?
    Ms. Atwood. I am sorry, sir. I really wouldn't want to 
speculate. I would assume that it would be similar across the 
board, especially at the Artesia, New Mexico, site where they 
utilize the same type of contracting services that we use for 
transportation, for role-player services, for armor services 
and the like.
    Mr. Rogers. I would be very surprised if it was 60 percent 
or 59 percent, but I would love to see that, and I would 
appreciate it. I look forward to it. The only thing I did 
notice that was privatized at Artesia when I was there were the 
security guards.
    Ms. Atwood. Yes, sir.
    Mr. Rogers. All right. I want to go back to Mr. Stana, 
talking about the field mentoring. Did you look at all about 
annuitant hires and the effect of that on the ability for the 
field mentoring to take place?
    Mr. Stana. We spoke with the officials at the sectors, and 
we discussed the possibility of bringing in more annuitants to 
help out here. That certainly is one way to try to address that 
sort of challenge. But there really is no substitute for having 
a person who is young, vigorous, maybe 10 years further down in 
their career, do those kinds of things--a person that actually 
does the job, as opposed to having a mentor who may be retired 
or doing something on a part-time basis.
    Mr. Rogers. So in your opinion, then, if we were to lift 
this requirement that all faculty at the academy have to be 
trained Border Patrol agents, so that many more of them in the 
peak of their career could get out into the field and serve as 
a mentor, that would be a good thing?
    Mr. Stana. That would be one way to help out this 
situation. Another way would be to try to stem the flow, the 
exodus of people out of the agency for whatever reason--better 
working conditions, better environment, better pay.
    Mr. Rogers. OK.
    Mr. Morgan, talking about the Border Patrol officers and 
their training, you mentioned, was it 450 in the school right 
now at a time? Or was it 45? I can't remember.
    Mr. Morgan. Right now in basic CBP officers school, we have 
currently today 596 students.
    Mr. Rogers. And they are there for a 73-day program?
    Mr. Morgan. Seventy-three class days, which is 
approximately 15 weeks, depending on holidays.
    Mr. Rogers. OK. Are you all being required or tasked to 
meet a surge in manpower like the agents are?
    Mr. Morgan. Yes.
    Mr. Rogers. What is your target?
    Mr. Morgan. For this year, the unit is 48 students per 
class. We started fiscal year 2007 with the goal of 33 classes. 
We are now going to run 44 classes. The prognosis for fiscal 
year 2008 is 66 classes.
    Mr. Rogers. OK. And what is the number that you are trying 
to achieve as far as the number of trained Border Patrol 
officers in the field? There are 12,000 now, according to 
earlier testimony, with 1,000 vacancies.
    Mr. Morgan. CBP officers?
    Mr. Rogers. Yes.
    Mr. Morgan. I think there is substantially more than 12,000 
in the field right now. My part of the equation is the number 
of students that we start with. I really don't know what the 
plans are. There are various programs under which Congress has 
authorized additional people, and then there is attrition, and 
that is how our workload goes up and down. But we base ours on 
student starts, how many students start in the class, so I 
really don't know the answer to that.
    Mr. Rogers. The reason I ask is Ms. Kelley testified 
earlier that there were 12,000 officers and 1,000 vacancies for 
CBPOs, but wasn't aware if the president had targeted a 
threshold that we are trying to achieve, like we are doing with 
agents. We have a little over 12,000 agents, but we need 18,000 
is what he is after. And you are not aware of any target 
either?
    Mr. Morgan. I am not.
    Mr. Rogers. OK. One question before I lose my time.
    Mr. Whitmire, do you really believe that you are going to 
be able to hit your target by December of 2007, having 6,000 
new Border Patrol agents through your academy?
    Chief Whitmire. By December 2008?
    Mr. Rogers. Yes, sir.
    Chief Whitmire. Absolutely. We have a plan in place, sir. 
Remember, I handle the training piece of the equation.
    Mr. Rogers. I understand that. I am just talking about 
pushing through the numbers in the next 18 months.
    Chief Whitmire. Absolutely. We absolutely do, sir. The plan 
is in place.
    Mr. Rogers. I hope you are right.
    Chief Whitmire. I hope I am, too, sir.
    Mr. Carney. We all share that hope.
    The chair now recognizes the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    I am going to kind of shift a little bit back to where we 
were with the prior panel. Mr. Rogers has been focusing on 
privatization and private contractors providing border 
security. We have had a couple of hearings on the National 
Guard, and I would like to know how the National Guard, and 
whether any of you are involved with assisting or training the 
National Guard under this Operation Jump Start, where they are 
supposed to come and assist with border security and border 
patrols.
    Chief Whitmire. Speaking for the academy, we have no 
interface with Operation Jump Start and the National Guard, 
sir. That is handled at the sectors.
    Ms. Atwood. I would echo that, sir. FLETC is not involved 
with the training of the National Guard.
    Mr. Perlmutter. With respect to some of the testimony we 
had earlier about the morale of our agents and our officers. Do 
any of you have any opinions about what is going on there or 
how we can improve that, so that we don't have the turnover and 
we don't need as many mentors because we have people who stay 
online and don't leave the system? Mr. Stana?
    Mr. Stana. Let me just start by saying we all ought to 
acknowledge it is a tough job, whether you are sitting in one 
spot like Mr. Bonner was talking about, or you are doing night 
patrols at a checkpoint. It is not an easy job and you are 
often doing your job in circumstances and in an environment 
that are unpleasant.
    The second thing I would say is one of the reasons why many 
of these agents go to other law enforcement groups is the law 
enforcement pay. I think one of the earlier panelists mentioned 
that. I am not advocating necessarily for it, but we ought to 
recognize that pay is an issue.
    Third, it is a job that is almost like you have a shovel 
and somebody tells you--I don't know if you ever were in basic 
training when if you did something wrong, you were shoveling 
piles from one place to another, but you never get finished. It 
is a job that has some built-in frustrations because you see 
oftentimes the same person trying to come through again and 
again and again, for whatever reason.
    So there are some frustrations to the job that you can deal 
with, like pay, working conditions. There are some things you 
can't. It is just a tough job.
    Mr. Perlmutter. Has there been a change in the mission that 
has made it a tougher job?
    Mr. Stana. With SBI coming on board, the Secure Border 
Initiative, the mission may change a bit. I must say, if you 
have been on night operations with the Border Patrol or day 
operations, you probably came to the same conclusion. I did. 
And that is, it is not a very efficient way to apprehend 
individuals: patrolling, waiting for people to come to you, 
sitting on that spot, or patrolling several miles inland.
    With the Secure Border Initiative, if it works correctly, 
you would have radar sensors, night cameras, identifying where 
to go to pick up. And that may have an effect on the number of 
agents you would need to do the job. It may not be 18,000. It 
may not be 28,000. It probably is more than 12,000, though, but 
there are some challenges with that, too, but that may help 
better define the mission and take some of the frustration out 
of the job.
    Mr. Perlmutter. OK.
    Thanks, The Chairman. I have no more questions.
    Mr. Carney. I thank the gentleman from Colorado.
    I will start the second round.
    Mr. Morgan, you are responsible for training the CBP 
officers and ag specialists at FLETC Glynco. Is that correct?
    Mr. Morgan. The ag specialists are trained at the United 
States Department of Agriculture Professional Development 
Center in Frederick, Maryland. We participate in that training. 
We manage that training for our officers up there, but most of 
the training is provided by the United States Department of 
Agriculture.
    Mr. Carney. OK. So it is the USDA curricula.
    Mr. Morgan. It is mostly a USDA curriculum, and we provide 
3 weeks of CBP training.
    Mr. Carney. OK, good.
    Mr. Morgan. And then we manage them, any discipline that 
needs to be done, any of that kind of activity. We run the 
academy. The USDA provides the expert instruction.
    Mr. Carney. OK, very good. Thank you.
    Mr. Whitmire, in your opinion, what value do Border Patrol 
agents add as trainers at the academy?
    Chief Whitmire. Sir, the Border Patrol, as you are aware, 
is a paramilitary-type organization. Basic training is probably 
the most critical point in a person's career in that we are 
attempting to instill esprit de corps, mission focus, 
organizational identity and integrity.
    The idea that someone else, either from another agency or 
as a contractor, could convey those intangibles is simply 
outside the realm of belief to me, after 24 years. I have a 
number of years conducting training exercises and operations 
for the United States Border Patrol, sir.
    Mr. Carney. I agree. I have a military background as well. 
The intangibles are something that really, from my perspective, 
create the culture that you need that becomes a common threat 
throughout the entire agency. I know DHS is struggling with 
that now. So to have a situation where you create the esprit de 
corps, what it means to be a CBP officer, what it means to be 
on the border--these are your brothers and sisters.
    Whatever we can do to foment that, to promote that, and to 
make sure it becomes part of the mindset, I think is absolutely 
critical.
    I have no further questions. If we could stand by for one 
moment.
    Go ahead, Mr. Perlmutter.
    Mr. Perlmutter. This is to Chief Whitmire.
    Is there any kind of a continuing education, continuing 
training process? I had mentioned earlier the gentleman who 
allowed the TB patient in. It may have been that he had a bad 
day or made a bad judgment, or whatever, but what kind of 
continuing education, continuing training program do you have?
    Chief Whitmire. Good question, sir. All individuals who are 
hired today into the Border Patrol, not into the CBP ranks, but 
into the Border Patrol, but also in CBP ranks, are hired under 
the FCIP program, the Federal Career Internship Program. It is 
a 2-year probationary program.
    On the Border Patrol side, we provide basic Border Patrol 
training and then there is a post-academy training that follows 
as well, up until the 20th month. That is provided to every 
Border Patrol agent. At this point, we are changing that 
program, but it will become more effective and more efficient. 
Nonetheless, it covers all of the mission-critical tasks 
following the academy.
    There are two parts to it. Our part, the Border Patrol 
Academy owns the academic portion of the training and the 
sectors on the field training unit portion of that training, 
which acclimates those people to the particular environment and 
sector that they are going to be working in.
    But yes, there is a continuing training program. As well, 
there is in-service training and some of that is provided by 
the Border Patrol Academy such as our in-service journeyman 
training, which is given to every Border Patrol agent, made 
available to every Border Patrol agent. There is also 
supervisory Border Patrol agent training, and a number of 
opportunities for in-service training for agents.
    Mr. Perlmutter. I didn't allow, or none of you offered, but 
do any of you have an opinion--Mr. Stana offered his opinion--
on the morale issues and the turnover?
    Chief Whitmire. I would offer this, that the basic premise 
that morale is a serious issue in the Border Patrol is one that 
is put forward by the union and specifically those individuals 
in the union. I am not familiar with that border patrol, and I 
am very familiar with the field agents in the field.
    Also, just as it was put forth, a number of incorrect items 
were put forward concerning the Border Patrol Academy. I would 
offer that Mr. Bonner has never been to the United States 
Border Patrol Academy since I have been the chief, yet 
Congressman Rogers asked him directly if he was very familiar 
with the Artesia facility. I have never seen him there.
    As well, I am not familiar with the border patrol that he 
depicts. That being said, in answer to your question, sir, 
there are things in play--the voluntary relocation program that 
is being offered to Border Patrol agents.
    For those of you that are probably aware--and maybe not 
aware, Mr. Stana is and touched on that subject--the Border 
Patrol is in a lot of places that a lot of people do not want 
to be. That is just the Border Patrol, just as in the military.
    The voluntary relocation program is going to address some 
of those issues. People will be allowed to move, which is one 
of the biggest issues that comes up in the Border Patrol. 
Individuals are in a place that they don't want to be and would 
like to get closer to home, with little chance to move there 
other than going to the supervisory ranks. There are a number 
of programs that we are putting in place as we speak that will 
address some of those concerns.
    Mr. Perlmutter. Thank you.
    Ms. Atwood?
    Ms. Atwood. Perhaps if I have anything to add to this 
particular discussion it would just be that I came into Federal 
law enforcement in 1984. Over the years, I have noticed that we 
have a number of opportunities to move around to other agencies 
that didn't exist perhaps in the years where individuals would 
begin with one particular agency and remain with them for their 
entire career.
    So it is well-known that there are a number of 
opportunities out there for you in Federal law enforcement. 
Some people like change, and I am talking in addition to what 
Chief Whitmire spoke to about the difficult conditions, et 
cetera. But I really don't know that.
    I know I haven't personally seen any statistics that would 
indicate that this type of turnover is specific to CBP, because 
it does tend to be a group of individuals in law enforcement 
who do enjoy change, and frequently go from one agency to 
another. We are a restless group.
    Mr. Perlmutter. OK, thank you.
    Mr. Morgan. May I?
    Mr. Perlmutter. Sure.
    Mr. Morgan. I would like to just say I see the morale at 
our academy is outstanding. The people that are there 
understand the mission. They understand the importance of it. 
The students leave the academy with extremely high morale, 
knowing what they know and knowing what they don't know, if you 
understand what I mean.
    Sometime next year, we will hit what I think is a crucial 
point. There are 18,000 CBP officers. Sometime next year, one-
third of those will be newly hired who have gone through the 
new curriculum. They will not know customs or immigration or 
agriculture. They will know being a CBP officer. It will hit 
the one-third mark, and I think that starts to get to where the 
numbers affect that.
    I think some of the morale problems that Ms. Kelley might 
have mentioned is some of the people that came from one of the 
legacy agencies or not. And I think as time goes on, I think 
that aspect of it will improve.
    Mr. Stana. I just might add that we have some work under 
way for this committee and for Mr. Akaka on the Senate side, 
specifically aimed a the One Face at the Border initiative, how 
well it is working, what the challenges are, and what some of 
the vulnerabilities are, frankly. We will be addressing many of 
these issues.
    If you would like a preliminary briefing on this, we 
perhaps could arrange it, but given that most of the 
information we would be discussing is sensitive in nature, I 
can't describe it here.
    Mr. Carney. Sure.
    I have a follow-on for Mr. Perlmutter's questioning. If I 
come in as a new recruit, is there a clearly delineated career 
path I could follow if I want to get in a supervisory position 
at some point?
    Mr. Morgan and then Mr. Whitmire.
    Mr. Morgan. It is one thing that we talk about. At the last 
day at the academy, we have several hours of time which we call 
``career survival and enhancement.'' We talk about the ways 
that CBP officers can go. We encourage them to concentrate on 
their basic job for at least 2 or 3 or 4 years, to be the best 
officer they can be wherever their supervisor puts them.
    Personally, I tell them if your supervisor puts you on lane 
12 at San Ysidro, be the guy who when you are there, you become 
the best so that the supervisor never has to worry about that 
lane when you are there, and then look on to other jobs. We do 
describe many opportunities that exist for them to go. One of 
the most normal is through the supervisory ranks from a GS-11 
to GS-12 to GS-13 and GS-14.
    Others are international jobs. CBP now has people in I 
think it is 50 international locations where CBP officers can 
serve, at our National Targeting Center. There is not one path. 
There are many paths that they can take, or they can stay right 
in their home port and progress there. We explain that to them 
many times, but on the last day in particular.
    Mr. Carney. It gets stressed on the last day. Maybe it 
makes sense to do it earlier so that they are thinking about it 
and get more excited about this opportunity.
    Mr. Whitmire, do you care to comment?
    Chief Whitmire. I would just say that we are the same as 
every other Federal law enforcement agency--FBI, DEA, U.S. 
Marshals--exactly the same within the constraints of OPM 
regulations. We have a very clearly defined career path.
    Mr. Carney. OK. Very good.
    Ms. Atwood?
    Ms. Atwood. Ditto.
    [Laughter.]
    Seriously, it is the same pretty much for every Federal law 
enforcement agency. You have the same career path. I started as 
a GS-4 co-op student and was able to have the benefit of 
working in a career path that actually at that time went to GS-
12.
    By working my way through and having the benefit of field 
training officers to work with me to enhance the skills that I 
have obtained at FLETC, then you are able to then choose if 
supervision and leadership is an area that you believe that you 
could provide additional benefits for or not.
    Mr. Carney. Thank you.
    I just have one more quick follow-on. After you graduate, 
and you are in your position for 3 or 4 or 5 years, whatever it 
might be, is there a requirement or is it voluntary to take 
additional education credits for whatever it might be?
    Ms. Atwood. Go ahead.
    Mr. Morgan. For CBP officers, there is a set of training 
requirements that they must go through every year. Many of them 
are online and they get it through our online system there.
    We also have 50 advanced courses which are just-in-time 
training. When an officer is assigned to a particular team or 
when he is assigned to a particular duty at his port of entry 
or her port of entry, they will come back for an advanced 
training course either at Glynco or one of the major ports of 
entry, where we coordinate training for them.
    For instance, if somebody is going to be on an outbound 
currency interdiction team looking for drug money going out of 
the country, or terrorist money going out of the country, they 
would go up to New York and take our outbound currency 
interdiction team training before being assigned to that team. 
There are 50 classes like that.
    Mr. Carney. OK.
    Ms. Atwood. Sir, if I can just add to that. That is a good 
segue to just make sure that you know that part of FLETC's role 
is to provide for both the basic and advanced training needs of 
law enforcement. We do have well over 100 advance training 
programs that we provide just for that continuing education for 
Federal law enforcement nationwide.
    Mr. Stana. Just to balance out the discussion, keep in 
mind, Mr. Carney, that what you have here is people at the 
ports of entry who may be working double shifts. When are they 
going to have time to train? They need to be at the booth. 
Similarly, you have Border Patrol agents who because of 
shortages need to be on patrol constantly, and don't get a 
chance to train.
    So the training may be there. It may be well-designed. It 
may be well-meaning, but can the agent or the officer afford to 
get away from the post to take the kind of training that they 
need to take to be fully effective.
    Mr. Carney. That is a very good point. Thank you, Mr. 
Stana.
    Mr. Rogers, any further questions?
    Mr. Rogers. Mr. Morgan, I wanted to follow up on some 
comments made by Ms. Kelley earlier about the use of canine 
detection teams. She indicated that there had been a diminution 
in the number of those teams because of this One Face at the 
Border initiative and its effect on personnel.
    Are you aware of a decline in the number of those teams 
being used by CBP?
    Mr. Morgan. I am not aware of that. Unfortunately, I would 
have to defer answering that. I don't really have any direct 
knowledge about that.
    I do know that one thing she mentioned is true. I wouldn't 
call it a collateral duty, but you now become a CBP officer 
first, and then you become a canine officer. That is a new 
methodology that is in use.
    I am not responsible for training the dog handlers. I have 
heard nothing about any diminution or lessening.
    Mr. Rogers. Where are those dog handlers trained?
    Mr. Morgan. Dog handlers are trained at Front Royal, 
Virginia, El Paso, Texas, and then the USDA has a facility down 
in Orland, Florida, where they train the beagles.
    Mr. Rogers. OK. Thank you. I have been to two of those. I 
have not been to the one in Florida, but I am going to try and 
get down to see it soon. But those are the ones that train for 
CBPOs as well as agents.
    Mr. Morgan. Yes. Border Patrol, too. Yes.
    Mr. Rogers. Excellent. I knew the agents did, but I didn't 
know the CBPOs did.
    Mr. Whitmire, you heard earlier in testimony I talked with 
Mr. Bonner about his interview on Glenn Beck's television 
program, where he said that from the time the president 
announced his desire to get 6,000 new agents through the 
academy and in the field, we have only got 650. Did that number 
sound about right to you?
    Chief Whitmire. I couldn't speak to the exact number. I am 
not certain of the dates, but I can ensure that we forward the 
information to you, giving whatever dates and time actually you 
would like, sir--what numbers were on board and are on board. I 
speak to the training numbers that enter on-duty and exit the 
academy.
    Mr. Rogers. Let me talk to you about that for a few 
minutes. You have heard me talk about the concern I have about 
all these faculty positions being designed as inherently 
governmental. Do you believe that all the faculty positions at 
your campus need to be designated as inherently governmental?
    Chief Whitmire. Whether or not they are designed as 
inherently governmental makes little difference to me, sir. 
What I believe is that Border Patrol agents should be training 
Border Patrol agents in every facet of our academy.
    Mr. Rogers. Including Spanish language?
    Chief Whitmire. Absolutely.
    Mr. Rogers. Including CPR and basic life support?
    Chief Whitmire. Absolutely.
    Mr. Rogers. Boxing fundamentals?
    Chief Whitmire. We don't teach boxing. Well, possibly 
fundamentals anymore absolutely should be taught by Border 
Patrol agents.
    Mr. Rogers. Report writing?
    Chief Whitmire. Yes.
    Mr. Rogers. HIV-AIDS awareness?
    Chief Whitmire. Yes.
    Mr. Rogers. Firearm safety?
    Chief Whitmire. Oh, absolutely.
    Mr. Rogers. And basic physical conditioning?
    Chief Whitmire. All of that, sir.
    Mr. Rogers. Should be taught by a Federal Border Patrol 
agent?
    Chief Whitmire. Every hour.
    Mr. Rogers. How many personnel did you have on your faculty 
prior to being charged with this increase of agents? I am going 
to go back behind where the president wanted to go up to 6,000, 
and go back to 2004 when the Congress authorized 2,000 new 
agents a year for 5 years. What was the size of your faculty? 
You said now you have 350 agents and 40 annuitants, and then a 
few other people.
    Chief Whitmire. Actually, I have about 100 permanent 
instructors, 350 detailers, and 48 annuitants today, sir, yes.
    Mr. Rogers. And how does that compare with 3 years ago?
    Chief Whitmire. I probably had about 200 instructors total, 
between several different facilities. In 2004, I was running 
the Charleston facility and as well as had Artesia and Glynco 
training facilities, so it was split between three facilities.
    Mr. Rogers. OK. So you have about a 250 percent increase 
since 2004, and you are anticipating another 200 folks by next 
year?
    Chief Whitmire. I would say that is fairly accurate, sir. 
The good thing about detailers is they allow me to expand and 
contract that in the future should the surge decrease, those 
people return to the sectors.
    Mr. Rogers. The last thing I want to touch on is I talked 
with you when I was there about the concern about recruitment 
and having that ready pool of applicants, primed, and ready to 
start your academy.
    As you will recall, there is a lot of dialogue about how 
many people they have to go through, how many applicants they 
have to go through to get somebody that is actually a 
candidate. As I recall, it was about 30 or 35 applicants that 
you have to go through to get one person that is adequate.
    Chief Whitmire. I believe that is correct, sir.
    Mr. Rogers. My concern at that time was that this vetted 
pool of applicants was not big enough to meet your surge 
demands going through the academy at that time, and this was 
almost a year ago. We talked about some plans that you were 
going to try to develop to build that pool.
    At that time, that ready pool of applicants was about 500 
to 600 people. Do you have any idea at this date in time how 
many ready applicants or candidates for your academy are 
sitting waiting to start?
    Chief Whitmire. I do not, sir. That is a function of HRM, 
but I am certain we could forward that information to you.
    Mr. Rogers. OK. Thank you.
    That is all I have, Mr. Chairman.
    Mr. Carney. I thank the gentleman from Alabama.
    I thank the witnesses for their valuable testimony today. 
It has been quite enlightening.
    Members of the subcommittee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to them.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned.]


              APPENDIX: Additional Questions and Responses

                              ----------                              


               Questions from Hon. Christopher P. Carney

                    Responses from Colleen M. Kelley

    Question 1.: In your opinion, how many Customs and Border 
Protection Officers would be needed to have a robust and fully staffed 
force at our ports of entry?
    Response: According to the former U.S. Customs Service's last 
internal review of staffing for Fiscal Years 2000--2002 dated February 
25,2000 also known as the 2000-2002 RAM, the Customs Service needed 
over 14,776 Customs Inspectors (an increase of 6,481 new hires) just to 
fulfill its basic mission--and that was before September 11.
    The RAM also shows that a total of 1,291 Canine Enforcement 
Officers (an increase of 650 new hires) would be needed in order to 
fulfill the Customs Service's canine inspection duties. It has long 
been proven that detection canines are an invaluable part of the 
security system at the ports of entry. Detection canines are trained to 
detect explosives, drugs, concealed humans and currency. In the past, 
canine teams have been deployed during every shift at 24 hour ports of 
entry which necessitated overtime assignment for some canine teams. 
Since July 2005, dog teams work regular time only. Under the One Face 
at the Border initiative, canine handlers do fill in for overtime duty, 
but without their dogs.
    NTEU believes that both bomb and drug canine detection teams are 
integral to securing our border. CBP Officers nationwide and NTEU 
strongly support H.R. 659 introduced by Representative Michael Rogers 
(AL), a Ranking member of this subcommittee, to increase by not less 
than 25 percent the number of trained canine detection teams deployed 
at and between the ports of entry.
    Since the release of the U.S. Customs 2000--2002 RAM was released, 
the Department of Homeland Security was created and the U.S. Customs 
Service was merged with the Immigration and Naturalization Service and 
parts of the Agriculture Plant Health Inspection Service to create 
Customs and Border Protection (CBP) and given an expanded mission of 
providing the first line of defense against terrorism, in addition to 
making sure trade laws are enforced and trade revenue collected, while 
at the same time facilitating the flow of travel and trade.
    According to GAO, with the merger of the three agencies inspection 
forces, there are now approximately 18,000 CBP Officers currently 
employed by CBP. Based on the expanded mission of the CBP Officers, and 
based on the results of the 2000--2002 RAM that stated the U.S. Customs 
Service needed to hire over 6,000 new inspectors to address the 
expanded workload projected at that time, I believe that at least 
22,000 CBP Officers would be needed to have a robust and fully staffed 
force at our ports of entry.
    Congress mandated CBP to perform a Resource Allocation Model in 
Section 402 of the SAFE Port Act. The CBP Resource Allocation Model 
(RAM) was due last month, June 2007. According to conversations that I 
have had with CBP, they plan to report out an allocation model that 
will only show how the agency is allocating existing resources rather 
than a model, such as the U.S. Customs Service 2000-2002 RAM, that 
reviewed current staffing levels and projected the required number of 
positions, the Optimal Staffing level, needed to fulfill its mission.
    NTEU strongly urges Committee hearings to review the findings of 
the CBP RAM when it is released.

    Question 2.: On page 5 of your testimony you raise the concerns of 
Customs and Border Protection Officers on the increased hiring levels 
of managers over the hiring levels of frontline employees. How does 
this affect operations? And what are your recommendations going 
forward?
    There is much concern among CBP officers that in terms of real 
numbers CBP has hired more new managers than frontline workers. 
According to GAO, over the same time period, CBP showed a 17 % increase 
in CBP managers and only a 2% increase in the number of frontline CBP 
Officers.
    At some ports, the ratio of supervisors to frontline CBP Officers 
has increased dramatically aggravating the vacancy situation. Prior to 
9/11, the goal was one supervisor to every 15 inspectors. I have heard 
that at some ports of entry there is one supervisor for every six CBP 
Officers. The increase of supervisors at the expense of frontline 
workers has put strain on the frontline work load that is manifested in 
compelled overtime and increased wait times at the ports. This ratio 
puts increasing scheduling pressure on rank and file frontline officers 
further demoralizing the workforce.

    Question 3.: Has the Department been helpful in providing refresher 
courses to CBP Officers that request them?
    I only have anecdotal information that management has not been 
responsive to CBP Officers' requests for refresher courses. The larger 
issue is that management does not set aside work time for taking 
training courses and there is no feedback or question and answer time 
with training module instructors or supervisors. That is why NTEU 
recommends that CBP put into effect an in-depth on the job training 
plan; allot specific times during tours of duty for CBP Officers to do 
all assigned computer-based training; provide structured discussion 
time must accompany all computer-based training; and provide refresher 
courses to all CBP Officers upon request.

    Question 4.: Will the expected increase in retirees from the civil 
service affect Customs and Border Protection Officers? How badly?
    Response: It is my understanding that by the end of 2008, fully one 
third of all CBP Officers will be new hires. There will be a huge loss 
in institutional and inspection specialization knowledge with the 
retirement of these legacy officers. This loss of inspection 
specialization knowledge is compounded by the One Face at the Border 
initiative because new hires are not given the length and depth of 
classroom and on the job training in customs, immigration and 
agriculture laws and procedures as legacy officers received.

               Questions from Hon. Christopher P. Carney

                  Responses from Robert B. Rosenkranz

    Question 1.: The Committee received the cost comparison between 
DynCorp International and CBP of training a border patrol agent for a 
period of one year, but profit is not broken out. What is the 
anticipated profit per proposed agent, and how was it calculated?
    Our pricing model carries a modest and reasonable profit that is 
consistent with other government contracts providing similar functions. 
In the services industry, revealing information such as profit margin 
on labor and materials can give competitors valuable insight into a 
company's pricing. While we prefer not to reveal such specific 
information in open testimony, we would be happy to provide it 
confidentially to members of the subcommittee.
    The important question to answer, however, is whether our approach 
could provide the Border Patrol with the personnel it needs, in the 
time it needs them, with the training and professional skills necessary 
to function at a high level, and at a reasonable cost. We believe the 
answer to that question is yes. In addition, our model would give the 
Border Patrol great flexibility to reduce the force if necessary or to 
take experienced contractors into the Border Patrol itself.

                  Questions from Hon. Yvette D. Clark

    Question 1.: DynCorp has faced repeated criticism and scrutiny from 
a variety of sources, including from the Oversight and Government 
Reform Committee, for the quality of the Iraqi security forces it 
trains, questions about disappearing expenditures, and about the 
actions of its own instructors. It seems that DynCorp presents the 
perfect example of what can go wrong when the government depends too 
heavily on private contractors with little oversight. With all of these 
problems, why does DynCorp feel it would be able to do a better job 
than the current CBP operation?
    How are the above problems being addressed, and how would these 
issues be resolved in a CBP training program?

    The assumptions behind this question are untrue. Our company has 
done an excellent job in the police training programs in and 
Afghanistan, and our trainers and program have been praised in an 
inspector general's report which we will be happy to share with the 
Representative. We have a policy of transparency, and have cooperated 
fully to answer all questions about any of our support activities for 
the United States government. We are currently cooperating closely with 
the House Committee on Government Oversight and Reform, and we believe 
the record will show that we have acted honorably and in good faith in 
all matters under review.
    We take our obligations seriously, and we have assured the Chairman 
and the Secretary of State that if we have made any mistakes or have 
failed to live up to our obligations, we will acknowledge any of our 
mistakes or failures.
    DynCorp International supports the State Department and the 
Department of Defense in providing on-the-job field verification and 
mentoring to Iraqi police who graduate from Iraqi police academies. We 
recruit experienced American police officers, both men and women, from 
across America, proven performers from our home towns and cities, who 
are then carefully screened and vetted. These are very dedicated 
officers who sign up for one year, but quite often reenlist for an 
additional year or two because of their commitment to their difficult 
and dangerous mission. They want to continue doing something important, 
meaningful and selfless. Nineteen of our American employees have died 
in the line of duty in Iraq.
    It is untrue that there have been problems with disappearing 
expenditures or inappropriate behavior by our police trainers, and I 
would have to question the source of your information. If you have any 
credible information to support this allegation, we would appreciate 
receiving it at your convenience. We have provided well over one 
thousand U.S. police trainers to the Department of State for the rule 
of law training and mentoring mission in Iraq, and they have performed 
with great distinction under very adverse conditions. If there are any 
instances of problems, we immediately remove the trainers from their 
positions and send them home.
    It is also untrue that we work in Iraq with little oversight. The 
Departments of State and Defense provide constant oversight, direction, 
and supervision to our trainers and advisors in Iraq. In fact, our 
trainers work for the Civilian Police Advisory Training Team, and 
receive all operational guidance and instruction from that command. 
Because of the prior police traditions and culture in Iraq, and the 
very difficult security situation, progress with the development of the 
Iraqi police force has been slow, but there is progress being made.
    To the question of why do we feel that we can do a good job 
training Border Patrol agents, we believe our ability to accomplish the 
training mission in places like Iraq, Afghanistan and the Balkans makes 
us exceptionally qualified to support the CBP training mission. Our 
``recruits'' would be highly qualified American policemen further 
qualified by their Border Patrol training. They would become effective 
members of the Border Patrol team. We believe that outsourcing the CBP 
training would be a very cost-effective way for the Border Patrol to 
quickly increase qualified staffing while maintaining appropriate 
command and control over all the personnel under its command.

    Question 2.: During the hearing on June 19, Mr. Rosenkranz 
testified that DynCorp no longer has any security personnel in Iraq. 
However recent media reports from the region have stated that DynCorp 
employees are currently in Iraq. Please explain this discrepancy and 
the nature of your company's presence in Iraq.
    DynCorp has two major contracts in Iraq. We are providing rule of 
law personnel to the State Department under our Civilian Police 
(CIVPOL) program to support the ongoing State Department post conflict 
reconstruction mission. Secondly, we are under to Diplomatic Security, 
an agency in the Department of State, to protect U.S. Government 
personnel and dignitaries in Northern Iraq. In both of these missions, 
our personnel are armed for both self protection and the protection of 
those for whom we are responsible. We are also tasked by Department of 
State with providing services for our own operations. We are not a 
security company. We do not provide security to commercial companies, 
the Department of Defense, other Government Agencies, Iraqi government 
agencies, or any other activity in Iraq.

                 Questions from Hon. Christopher Carney

                 Responses from Chief Charlie Whitmire

    Question 1.: Can Border Patrol agents and Customs and Border 
Protection Officers perform computer based training modules while on 
duty? Is there a supervisory agent on hand for a question and answer 
session after a training module is completed?
    Response: Border Patrol Agents can perform computer-based training 
while on duty.
    Several factors are considered when this type of training is 
required or available, including the length and location of the 
training, the number of employees at the location, and the available 
computers.
    There is always a Supervisory Border Patrol Agent available to all 
employees; however, training-specific questions are generally handled 
by the sector training staff. Without prior training or knowledge of a 
specific training course or module, the supervisory staff may not be in 
the best position to answer employee questions. The topic of training 
often dictates who should answer any questions.
    CBP Officers are allowed time on duty to complete required computer 
based training and are encouraged to complete optional computer based 
training and refresher training when possible. Most of the computer 
based training modules are designed to be self-study, but officers are 
encouraged to ask questions.
    CBP also offers some courses in a facilitated training environment 
where an instructor and/or supervisor are present in the room to answer 
questions or lead discussions about a particular topic.

    Question 2: Has CBP considered bonuses for experienced and 
qualified Border Patrol agents or Customs and Border Protection 
Officers that volunteer their time to instruct and train new recruits? 
What is the current policy?
    Response: CBP does not have difficulty attracting qualified and 
experienced instructors for basic and advanced training. The academies 
select individuals for three to five year tours of duty to serve as 
instructors. These individuals are selected for career ladder 
promotions that begin at a GS-12 and end at the GS-13 level. When 
returning to the field, many of these individuals are recruited at the 
higher grade.

                                 <all>

</pre></body></html>
